<html>
<title> - AVOIDING THE SUMMER SLIDE: THE IMPORTANCE OF SUMMER SCHOOL TO STUDENT ACHIEVEMENT</title>
<body><pre>[Senate Hearing 107-532]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-532



                       AVOIDING THE SUMMER SLIDE:

                   THE IMPORTANCE OF SUMMER SCHOOL TO

                          STUDENT ACHIEVEMENT

=======================================================================

                                HEARING

                               BEFORE THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                                   ON

 EXAMINING THE IMPORTANCE OF SUMMER SCHOOL TO STUDENT ACHIEVEMENT AND 
  WELL BEING, FOCUSING ON SUMMER SCHOOL CUTBACKS AND IMPLICATIONS OF 
                    RESEARCH POLICIES AND PRACTICES

                               __________

                             JUNE 21, 2002

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions



80-478              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

               EDWARD M. KENNEDY, Massachusetts, Chairman

CHRISTOPHER J. DODD, Connecticut     JUDD GREGG, New Hampshire
TOM HARKIN, Iowa                     BILL FRIST, Tennessee
BARBARA A. MIKULSKI, Maryland        MICHAEL B. ENZI, Wyoming
JAMES M. JEFFORDS (I), Vermont       TIM HUTCHINSON, Arkansas
JEFF BINGAMAN, New Mexico            JOHN W. WARNER, Virginia
PAUL D. WELLSTONE, Minnesota         CHRISTOPHER S. BOND, Missouri
PATTY MURRAY, Washington             PAT ROBERTS, Kansas
JACK REED, Rhode Island              SUSAN M. COLLINS, Maine
JOHN EDWARDS, North Carolina         JEFF SESSIONS, Alabama
HILLARY RODHAM CLINTON, New York     MIKE DeWINE, Ohio


           J. Michael Myers, Staff Director and Chief Counsel
             Townsend Lange McNitt, Minority Staff Director


                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page
Dodd, Hon. Christopher J., a U.S. Senator from the State of 
  Connecticut, opening statement.................................     1
Sessions, Hon. Jeff, a U.S. Senator from the State of Alabama, 
  opening statement..............................................     3
Clinton, Hon. Hillary Rodham, a U.S. Senator from the State of 
  New York, opening statement....................................     4
Feldman, Sandra, president, American Federation of Teachers, 
  prepared statement.............................................     8
Cooper, Harris, Professor, Department of Psychological Sciences, 
  University of Missouri, prepared statement.....................    14
Ramoglou, Christina, executive director, Rogers School Community 
  Center, Stamford, CT, prepared statement.......................    24

 
                     AVOIDING THE SUMMER SLIDE: THE
                     IMPORTANCE OF SUMMER SCHOOL TO
                          STUDENT ACHIEVEMENT

                              ----------                              


                         FRIDAY, JUNE 21, 2002

                               U.S. Senate,
       Committee on Health, Education, Labor, and Pensions,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:13 a.m., in 
room SD-430, Dirksen Senate Office Building, Hon. Christopher 
J. Dodd, presiding.
    Present: Senators Dodd, Clinton, and Sessions.

        OPENING STATEMENT OF SENATOR CHRISTOPHER J. DODD

    Senator Dodd. The hearing will come to order. Good morning, 
all of you. We apologize being a few minutes late getting 
underway, but as I think all of you are aware, we had a vote a 
few minutes ago, and so we are delayed getting over.
    I want to thank our witnesses for being here, and others 
who are in the audience, and I want to thank our colleagues, 
Senator Sessions of Alabama, and my colleague, Senator Clinton 
of New York, for joining us this morning for whatever time they 
have available. I know these are busy schedules. They close out 
the week here, and people are heading back to their States.
    The title of today's hearing is Avoiding the Summer Slide: 
The Importance of Summer School to Student Achievement and 
Well-Being.
    Let me just share a couple of moments of opening remarks, 
and I will turn to my colleagues for any thoughts they have, 
and then we will get to our witnesses.
    We are here on the first day of summer, June 21st, to 
discuss the critical issue of how summer school helps the 
neediest of our children to reach their potential and the 
impact on those children of budget cuts that are apt to slash 
their summer school activities. Without summer activities to 
keep their reading and math skills sharp, students start school 
in the fall about a month behind where they finished in the 
spring. That is the summer slide that everyone, I think, is 
aware of.
    The summer slide in math is about the same for low-income 
students as for others, but it is steeper in reading for low-
income students because they do not have the same access to 
books and reading opportunities as students from better-off 
families.
    As we will hear from one of our witnesses this morning, 
some researchers have concluded that if you combine the 
achievement gap that exists when low-income children start 
kindergarten with the cumulative effect of summer slide over 
the years, you will account for virtually all of the 
achievement gap at the end of high school. Congress and the 
President spent virtually all of last year writing the 
bipartisan No Child Left Behind Act, which holds schools 
accountable for closing that gap and for all students 
performing at a high level.
    Senator Craig and I, in particular, worked together to 
reauthorize the 21st Century Community Learning Centers, but 
more than schools need to be accountable. We--and the 
President, obviously--need to be accountable as well. Promising 
to leave no child behind means that we have to provide 
resources so that all children at all ages get the support they 
need to reach their potential--winter, spring, fall, as well as 
the summer.
    Unfortunately, because of the economy, States and cities 
around the country are cutting billions of dollars from 
education, including summer school. In New York City, the 
estimate is 75,000 summer school slots. In Washington, our 
Nation's capital, they will be eliminating some 12,000 slots. 
Hillsborough County in Florida, which includes Tampa, has cut 
out summer school altogether, and Portland, Oregon, has 
eliminated summer school for elementary school students. These 
are just a few of the examples from around the country.
    But only 1 month after signing the No Child Left Behind 
Act, the schools around the country in dire financial straits, 
the President proposed cutting funding for education reforms, 
including freezing funding for the 21st Century Community 
Learning Centers, which would mean that 30,000 fewer students 
would benefit from the program and fully serving only 40 
percent of low-income students under Title I. That is not the 
kind of accountability that I believe that our children need 
and deserve.
    The President said from the beginning that education is his 
top priority, and I believe him, and he has done an awful lot, 
I might add, from what we expected and saw only a few short 
years ago. Providing enough resources for education, however, 
should not be a choice. We do not, and should not, say that we 
would like to do more about the national security, but the 
times are tough. We do what we have to do to make the system 
work.
    We must provide schools with resources they need to meet 
the goals that we set in last year's reforms, including 
improving the quality and accessibility of summer schools so 
that children could benefit from the education activities year 
round. We must do more to improve the quality and accessibility 
of early childhood education so that low-income children reach 
kindergarten more ready to learn than they are, and we must do 
more to improve family literacy and public libraries, so that 
low-income children's homes and neighborhoods become more 
conducive to learning.
    Senator Jack Reed of Rhode Island has done especially good 
work in the area of improving our libraries in the country. 
Finally, on top of everything else, summer school serves non-
academic purposes. It gives children a safe, productive 
alternative to streets. A gang counselor said recently that 
this summer's cuts are going to make recruiting easier for 
gangs, because thousands of students will have no place to go 
when the school year ends. Summer school cuts will cause 
trouble for low-income working parents. A Washington, DC., 
Advisory Neighborhood Commissioner said that, in part because 
of the cuts, many of her constituents who do not have adequate 
child care arrangements will risk losing their jobs, their 
ability to keep food on the table, and even their homes in some 
cases.
    These may not be the primary purposes of summer school, but 
we if we do not make sure that students have summer 
opportunities, we are going to have to deal with the serious 
consequences, academic and otherwise.
    So I think our witnesses this morning can add some valuable 
information to this debate and discussion. Before I turn to 
them, let me turn to my colleague from the State of Alabama, 
and I thank you, Senator Sessions, for being with us, and then 
to Senator Clinton for some opening comments, and we will get 
to our witnesses.

           OPENING STATEMENT OF SENATOR JEFF SESSIONS

    Senator Sessions. Thank you very much.
    Summer school is an important aspect of education--of that, 
I have no doubt--and we do know that there is a slide in the 
summer if kids are not continuing to stay in connection with 
their learning process. It is an odd thing that we have such a 
long period and just drop educational process. I can remember 
my own feeling of coming back in the fall and knowing that we 
had to redo things we had on the front burner when we left.
    We do know this, and one of the things I believe the 
Federal Government should do is to study these programs to 
identify what we know works, and make sure that millions of 
dollars that are, indeed, being spent right now are spent 
wisely and most effectively. It would be an unfortunate thing, 
indeed, to double spending on summer school, but spend much of 
that on programs that are not as effective as they could be. So 
I think the Federal Government has an important role in that.
    Senator Ron Wyden and I introduced an amendment last year 
that passed the Senate to expend $25 million for summer school 
programs, and I really wanted it to make sure that we had good 
research, good information, good standards, and so we were 
calling on the school systems that would receive that $25 
million to participate in a good research project.
    I will be curious to hear your views of what really works 
in summer school, how we can spend the money that we are now 
spending better, and if we can demonstrate the kind of progress 
that may be possible in some schools, I believe that the 
American people will support expanded summer school programs. 
Of course, over 90 percent of funding and education is from our 
State and local governments, and that is where education is 
funded and run. We are going to need to sell them ultimately on 
the wisdom of this project, and I would like to participate in 
it.
    Mr. Chairman, I think a study of summer school to analyze 
what it contributes and how we can make it better is a good 
hearing topic, and I thank you for doing it.
    Senator Dodd. Thank you very much, Senator. I appreciate 
your presence, as well, too, and your help on this.
    Senator Clinton.

      OPENING STATEMENT OF SENATOR HILLARY RODHAM CLINTON

    Senator Clinton. Thank you very much, Mr. Chairman, and I 
join with my colleague, Senator Sessions, in thanking you for 
highlighting the importance of this issue, and I especially 
thank our witnesses for coming on this first day of summer.
    Sandra Feldman is always there when discussions about 
education and children take place, and I thank her for her 
leadership. And, Dr. Cooper, I thank you for focusing attention 
on an area that has not gotten enough, and I really appreciate 
your bringing this to a point where we can look at what many of 
us have believed for a long time and understand there is 
evidence to support that belief. And, also, Ms. Ramoglou, thank 
you for what you do and the program that you will be 
describing.
    Summer school and an extended school year has long been a 
desired objective for those of us who have worked on school 
reform for a long time, particularly because of the impact it 
has on low-income children, on poorly achieving children, on 
children who face challenges and difficulties because of their 
environments.
    It is such an important issue that even in a time of 
tremendous budget difficulties in New York City, our new mayor 
was persuaded to restore funding for summer school because the 
evidence is really overwhelming that we have made some 
important, albeit incremental, steps to raise achievement among 
our students in the New York City school system, and we know it 
will be wiped out if there is not some opportunity for 
continuing educational experiences.
    People like us fill our children's summers with all kinds 
of activities. We enroll them in camps, and programs, and 
recreational opportunities. We make sure they sign up at the 
local library to read the books, and get credit for, you know, 
little stars and caterpillar segments. We take them on family 
vacations. We do the things that we know continues their 
education.
    Since I have been in the Senate, I have tried to apply the 
Golden Rule to my public service, and that is if it is good 
enough for my child, it should be available for everyone's 
child, and there has got to be a way to drive that message 
home. Certainly, what the chairman is doing today with this 
important hearing is going to help us make the case, which many 
of us make in our own lives and which many of us know works for 
children in many difficult situations.
    So thank you very much, Mr. Chairman.
    Senator Dodd. Thank you very much. That is good news about 
New York and about restoring those cuts. If any other community 
has a bulletin they would like to share with this committee, I 
have made note of other communities around the country that had 
cuts, but they are welcome to let us know right away.
    Let me introduce our witnesses, if I can, and I am 
delighted you are all here.
    Sandra Feldman, of course, is well-known to all of us here. 
She is president of the 1.2-million member American Federation 
of Teachers, and a terrific advocate for students, and parents, 
and good education in the country, truly recognized as one of 
the leading experts in the Nation on educational policy and a 
very dedicated public servant. Sandra, we are, once again, 
pleased to have you here with us. Your background, of course, 
is tremendously valuable to us in discussing this subject 
matter.
    Harris Cooper is a professor of the Department of 
Psychological Sciences at the University of Missouri, and this 
month completed a 3-year term as department chair. I would also 
note that he received a Ph.D. from the University of 
Connecticut, and as we often say, ``come on home--all is 
forgiven,'' whatever you did, Dr. Cooper--come back to the 
State.
    [Laughter.]
    You have extensive experience in research synthesis and the 
application of social psychology to educational policy, so we 
are very interested in hearing your thoughts as well.
    Christina Ramoglou is the executive director of the Rogers 
School Community Center in Stamford, CT. Christina, we are very 
honored to have you here this morning. She has held that 
position since 1988. The center, which is known as ROSCCO, 
administers and offers school-based child and family support 
programs. Ms. Ramoglou is the former president, vice president 
and current member of the board of directors of the Connecticut 
School-Age Child Care Alliance. We have worked with each other 
on those issues for a long time as well. So I thank you for 
coming here this morning.
    We will begin in the order I have introduced you. Sandra, 
welcome to the hearing. Once again, you have been here many 
times, and we are very interested in hearing what you have to 
say.

STATEMENT OF SANDRA FELDMAN, PRESIDENT, AMERICAN FEDERATION OF 
                   TEACHERS, WASHINGTON, DC.

    Ms. Feldman. Thank you very much, Senator.
    Mr. Chairman and Members of the Committee, I really 
appreciate you having this hearing. It is an extremely 
important subject. Of course, I feel a bit like I really ought 
to say ``amen'' and go, because I know I am talking to people 
who know an awful lot about this subject. But I want to 
emphasize some things and perhaps put it in a slightly 
different context.
    First of all, I think it is important to acknowledge that 
the cuts that we are experiencing in summer school are really 
just the tip of the iceberg, unfortunately, because all across 
the States there are drastic cuts taking place in education, 
and we have to do something about that as well, because we are 
seeing achievement go up, we are seeing a lot of progress in 
schools, and we are in danger of taking a serious step backward 
with the cuts.
    But summer school just cannot be considered a frill any 
longer when money is tight. There was a time when the budgets 
were tight, so you would cut summer school, you would cut after 
school and focus on the school day. Well, it is no longer true 
that summer school is a frill. It is certainly not a frill for 
poor children. We have overwhelming evidence now that being out 
of school during the summer has serious consequences for their 
learning, and unless we start devoting serious attention to the 
time that they spend out of school, we are never going to be 
able to close the achievement gap. So I want to talk about it 
from that perspective today, in terms of what we all have as a 
tremendous goal, such as closing the achievement gap.
    I think it is worth repeating that we know that at the 
onset of school, poor children come behind. What most people do 
not know is that they learn as much during that school year as 
more advantaged children learn. The schools do a great job for 
our children when they are in school. In fact, school is so 
powerful that when they leave school, they begin to go 
backward, and the research on this is absolutely, I think, 
pretty convincing by now that the gap between poor children and 
more advantaged children continues to widen.
    Some people were saying: Well, you see these schools are 
not doing their job. The kids are not achieving in terms of the 
gap being widened. But we are finding now that it is the time 
out of school, not the time in school that creates the widening 
of that gap.
    Dr. Cooper I am sure has studied this, and we will talk 
about this, but there is a lot of research. I always like to 
quote Johns Hopkins university professors, Doris Entwisle and 
Karl Alexander, and here is what they say: ``The children from 
poor and middle-class families make comparable gains during the 
school year, but while the middle-class children make gains 
when they are out of school during the summer, poor and 
disadvantaged children make few gains or even move backwards 
academically.'' It is exactly the kind of thing that Senator 
Clinton was talking about; that advantaged, middle-class 
families take their children to the library, make sure they go 
to the library, take the months-long family vacations in which 
children are constantly learning, provide them with access to 
museums and other cultural activities, even organized sports, 
which are tremendous learning experiences for children. Poor 
children, more often than not, are sitting in front of the 
television or being baby sat or watching videos or sort of just 
hanging out, and they are not getting the same kind of learning 
experiences as more advantaged children.
    So for the advantaged children, their learning continues to 
accelerate, and poor children either stop or even go backwards. 
I think, Senator Dodd, as you said, that researchers have 
calculated that when you add the achievement gap that exists at 
the onset of kindergarten to the gaps that are created for poor 
children when schools are not in session, you have really 
accounted virtually for the entire achievement gap between 
advantaged and disadvantaged children, which the schools have 
been basically blamed for all of these years.
    I think it is important to talk about the No Child Left 
Behind Act. It was a strongly supported bipartisan measure. The 
AFT is committed to working hard to help make it work, and it 
is not going to take us where we need to go unless we act on 
this evidence. So I think it is particularly painful, given 
this evidence, and given the attention that is being paid to 
education, and given the way that people came together in this 
Act, to witness the decimation of summer school, especially in 
needy communities.
    It is especially hurtful, I think, because we are beginning 
to see a restoration of summer school after many years, when 
summer school was totally neglected, when the cuts were made, 
and we are just beginning to get summer school back because of 
the standards-based reform that is going on in a lot of States. 
Instead of reeling from cutbacks, we had hoped to be working on 
expanding summer school and improving the quality of summer 
school in the way that the research indicates. Instead, we are 
faced with these cuts.
    In the face of higher standards, which we fully support and 
which we want to make work for kids, we have to make sure that 
the children who are not meeting those standards, who need the 
extra time and the extra help to meet them, get that extra 
time, and the evidence makes absolutely clear that the extra 
time that they need primarily is summertime.
    I think that this hearing is particularly helpful because 
it is especially cruel that at a time we have this evidence, 
when we were beginning to get a restoration of summer school, 
when we are beginning to see achievement take hold, especially 
in poor communities for poor children, we are seeing these 
tremendous cuts, and you had some of them up on the board 
there.
    We did a survey which we are happy to share with you, and I 
have a list in my testimony of some of the places, but you talk 
about Washington, DC., cutting almost two-thirds of its summer 
school--it is an absolute disaster--or Boston, MA, which is 
looking at a summer school cut possibly of 60 percent, 
Worcester is planning to cut summer school to help trim an $18-
million shortfall, and in Massachusetts, just as an example, 
next year is the first year that passing the State examinations 
is a condition of high school graduation. These are just a few 
examples, and you have all of those, and we are happy to share 
our survey with you.
    I just want to say this, that the reason this is happening 
is not out of malice; it is happening because there is not 
enough money. It is not as if money is being badly spent or 
poorly spent either, because we have a lot of knowledge about 
what works in summer schools.
    But losing summer school is really a betrayal of promises 
that have been made by the standards-based reform movement. I 
know that if school districts that are served, especially 
school districts serving poor children, if they had the 
resources, they would use the resources. You see it all over 
the country. They are extending the school day. They are 
providing Saturday mornings for kids, and they are providing 
summer school when they can afford it.
    I also just want to say that we are experiencing a 
potentially distressing thing that is happening. The Department 
of Education put out some preliminary guidance on the use of 
supplemental services, which you know is an important part of 
the No Child Left Behind Act.
    While it is preliminary, and we are hoping to get it 
changed, I wanted to make you aware of it that the guidance 
that they issued that is out there now allows providers who are 
providing supplementary services, and of course this is after 
school, summer school, can use unqualified personnel for 
remediation. They had some language that said they specifically 
cannot prohibit States from letting providers who provide these 
services use uncertified teachers. It makes absolutely no 
sense, none, to do remediation with people who are not 
qualified, when we are doing everything we can during the 
school year to try to get kids taught by qualified teachers.
    Precious resources should not be devoted to supplemental 
service providers who do not have a record of success or do not 
employ certified or licensed individuals. If it is a speech 
therapist that is needed, it ought to be a licensed speech 
therapist. If they are doing reading remediation, it ought to 
be a reading teacher who knows what she is doing, and we have 
the alternative of providing summer school in our much 
underappreciated public schools that are already doing a pretty 
good job for kids.
    So I hope that you will take the lead--I know you will take 
the lead in securing additional Federal funding and looking at 
the whole package because we do not want to rob Peter to pay 
Paul, and we do not want to take money away from much-needed 
programs during the school year, from reducing class sizes, 
from doing the things that children need during the school year 
to pay for summer school.
    We have to look at this overall, and the Federal Government 
has a long way to go before it, I think, really does what needs 
to be done for our kids, especially our poor kids. I know that 
you want to do it, and I fervently hope that you will succeed.
    Thank you.
    [The prepared statement of Ms. Feldman follows:]

           Prepared Statement of Sandra Feldman, President, 
                    American Federation of Teachers

    On behalf of the 1.2 million members of the American Federation of 
Teachers, I appreciate this opportunity to speak to you about the 
importance of summer school and the serious consequences of the 
dramatic cuts we are experiencing in this program as a result of the 
economic downturn. While I will confine my remarks to the summer school 
issue, I think you are hearing from your constituents just what I am 
hearing: summer school is just the tip of the iceberg of education cuts 
our students face.
    First, let me commend the Members of this Committee for your 
decision to hold a hearing on this issue. Many people still think of 
summer school as a frill, as something that is ``nice'' to offer but 
non-essential and therefore dispensable when money is tight. By holding 
this hearing, Committee members are giving the public an opportunity to 
re-examine this perception, and the timing could not be more ripe. For 
the evidence is by now overwhelming that what happens to children 
during the summer months is almost as consequential to their academic 
achievement as the time they spend in school. And in the case of our 
needy children, those consequences are dire. In fact, until we start 
devoting as much attention to what happens to poor children during the 
68 percent of their waking hours when they are out of school as we do, 
and correctly so, to the time they are in school, our hopes for making 
greater progress in overcoming the achievement gap will continue to be 
dashed.

Summer Learning Loss

    It is ironic that during a time when the education watchword of the 
day is ``scientifically or research-based,'' some of the most solid and 
significant research findings about the achievement gap are being 
ignored. (References to the evidence used in this section can be found 
at the end of this testimony.) First, the gap is present at the onset 
of kindergarten, before formal schooling begins, and gets substantially 
narrower during the kindergarten year. Second, and contrary to myth, 
poor children do not lose ground during the school year. In fact, the 
research on this subject unanimously finds that, on average, poor 
children make as much, and often more, progress while in school as 
their more advantaged peers. The chief cause of the widening 
achievement gap as children progress through school is what happens to 
poor children, relative to non-poor children, when they are not in 
school, that is, during the summer months.
    As Johns Hopkins University professors Doris Entwisle and Karl 
Alexander put it: ``. . . children from poor and middle-class families 
make comparable gains during the school year, but while the middle-
class children make gains when they are out of school during the 
summer, poor and disadvantaged children make few gains, or even move 
backwards academically . . . The increasing gap in test scores between 
children from families of high and low socioeconomic status over the 
elementary-school period thus accrued entirely from the differential 
gains they made when school was closed . . . [P]oor families could not 
make up for the resources the school had been providing and so their 
children's achievement plateaued. Middle-class families could make up 
for the school's resources to a considerable extent and so their 
children's growth continued, though at a slower pace than during the 
school year.''
    In other words, on average, our schools are so effective in 
compensating for the effects of poverty that we cannot afford to have 
them closed. According to New York University professor Barbara Heyns, 
who pioneered the work on summer learning losses, ``Approximately 80 
percent of the achievement gap between economic privileged and less 
advantaged students occurs in the summer months, in the absence of 
schooling. The general pattern is similar when black and white students 
are compared, but family economic status seems to play a more important 
role than race.'' Indeed, researchers have calculated that when you add 
the achievement gap that exists at the onset of kindergarten to the 
gaps that are created when school is not in session, you have accounted 
for virtually the entire achievement gap between advantaged and 
disadvantaged students at the end of high school.
    Congress recently passed the No Child Left Behind Act (NCLBA), a 
bipartisan measure that the AFT will try hard to make work. It is in 
this spirit that I say that the weight and solidity of the evidence 
about poor children's need for quality early childhood education and 
rich summer learning experiences tell us that NCLBA will not take us as 
far as we can go in closing the achievement gap. We must act on it, for 
the sake of the stated goals of NCLBA and, above all, for our 
youngsters.
    Moreover, since NCLBA launches a whole new round of testing and 
accountability, there is a fresh opportunity to do it accurately, 
usefully, and fairly and not, as the experts have repeatedly 
demonstrated, in a way that obscures the root causes of the achievement 
gap and the actual academic outcomes produced by our public schools. As 
Entwisle and Alexander tell us, ``Standardized tests administered once 
a year, the testing schedule followed in most schools, cannot 
distinguish between children's progress in winter and summer. When 
gains are calculated from one spring to the next, the seasonal 
differences in growth rates are ignored. Therefore, yearly scores 
convey the distinct but wrong impression that middle-class children 
learn more over the entire year than poorer children . . . Rather, 
[schools] are so effective that nothing else matters when they are 
open. They enable poor children to overcome resource deficits in their 
families and neighborhoods and progress at a rate equal to or faster 
than that of better-off children.''

Summer School Cutbacks

    In light of all this evidence about the negative impact on poor 
children of being out of school-- and I have offered up only a small 
sample--it is particularly painful to witness, once again, the 
decimation of summer school, especially in needy communities. After 
many years of budget-driven neglect, summer school was just beginning 
to get its legs again, thanks to the standards movement. Instead of 
reeling from cutbacks, we had hoped to be working on expanding summer 
school and improving its quality in the way the research indicates.
    But it looks like deja vu all over again. Summer school is usually 
the first thing to go in a downturn, and, like the canary in the mine, 
is also usually a harbinger of other cuts to come, which typically fall 
disproportionately on the backs of poor children. But in the yo-yo 
world of education funding, there is never any slack in the 
responsibilities that our schools are expected to meet.
    Today, those responsibilities are greater than ever, and the 
standards that have been set for our students and schools higher than 
ever. Though there are some who would like to believe that achievement 
can increase and the gap narrow according to a rigid lockstep schedule, 
anyone who has been around children knows that learning, much like 
physical growth, does not take place that way, and that some children, 
particularly those who are already struggling, need extra help and 
time.
    As the evidence I've presented makes so abundantly clear, for needy 
children that time is the summer. For not only is that the most 
sustained time available for remediation, it is also the main time when 
poor children, unlike advantaged ones, fail to make academic gains. 
Significantly, it is also when the considerable gains they make during 
the school year get eroded, putting them further and further behind, 
despite their best efforts and those of their schools.
    I believe that what ultimately drove and united individuals and 
groups from across the political spectrum to put aside their 
differences and secure passage of the No Child Left Behind Act was a 
shared commitment to overcoming America's shameful achievement gap. 
That commitment means we must finally come to grips with the fact that 
what happens outside of schools is as important, if not more so, than 
what happens in them; the two go hand in hand.
    Unlike many occasions when the scales fall from our eyes, 
recognizing this fact is an occasion of hope because there is something 
we can do about it--and must do if we are fully serious about leaving 
no child behind or at least about ensuring that the law that proclaims 
this in capital letters is workable, fair, and optimally effective. The 
solution to the debilitating effect on needy children of not being in 
school is more, and even more effective, schooling. And that is very 
good news indeed, because not only does public education seem to be the 
only institution that never turns its back on children, but our schools 
also would welcome being enabled to do even more for their students.
    How particularly cruel, then, that just when the combination of 
scientific evidence about the achievement gap and the passage of NCLBA 
dictate that we should be expanding and improving summer school 
offerings, just the opposite is occurring. The evidence is not yet all 
in, but here's a first look at an AFT survey of the effect that the $11 
billion--and counting--that State legislatures have cut from education 
budgets in the last year is having on summer school.

    <bullet> Washington, DC.--A two-thirds reduction in the summer 
school budget.
    <bullet> Florida--A scene of particular devastation, with Broward 
County cutting summer school in half this year and eliminating it 
altogether the next; Leon County cutting $1.2 million in a summer 
school program that, last year, kept 77 percent of its students from 
being retained in grade; Pasco County sharply curtailing a program that 
last year had employed more than 1,400 teachers and support personnel; 
Dade County sure that it will have to cut summer school but not yet 
certain about the extent; Columbia County looking at anywhere from a 
33-66 percent cut in the summer school budget; Pinellas County needing 
to eliminate summer school next year; and Hillsborough County 
eliminating it already.
    <bullet> Oregon--The elimination of $35.4 million in State grants 
for full-day kindergarten, summer school and gifted programs.
    <bullet> Colorado--A one-quarter reduction in the budget for the 
Summer Scholars program for children who are behind in reading skills.
    <bullet> Indiana--Which had provided 80 percent of the funding for 
summer school, will now only be able to cover 60 percent of the costs, 
and the expectation is that the figure will be less.
    <bullet> Michigan--Will be cutting summer school for low-performing 
students in 2003 as a result of a $500 million budget gap.
    <bullet> North Carolina--As a result of a $695 million budget gap 
for the fiscal year starting July 1, schools will face a sharp 
curtailment of summer programs next year. Wake County has already had 
$15 million in budget cuts, which has affected summer school and high 
school tutoring programs.
    <bullet> Kansas City, Kansas--Faces the total elimination of its 
summer school.
    <bullet> Boston, Massachusetts--May have its summer school budget 
for next fiscal year cut by 60 percent, while Worcester is planning to 
cut summer school to help trim an $18 million shortfall. Next year is 
the first year that passing the State exams is a condition of high 
school graduation.
    <bullet> Los Angeles, California--Expects budget cuts that will 
imperil summer school, as does Birmingham, Alabama.
    <bullet> Enid, Oklahoma--Is canceling its summer school because it 
lacks State and local dollars to match Federal funding.

    The list above is only a sample of what we have found so far, and 
we doubt that the information still to come in will alleviate this 
bleak picture. Moreover, since some districts will preserve all or some 
of their summer school programs by charging fees, the full extent of 
budget-induced cuts will likely be masked.
    One thing we can predict with some certainty, however, is that 
there will be few, if any, poor children in summer school programs that 
must charge fees. And we cannot soothe ourselves about this by thinking 
that these children will instead be in summer camps or in enrichment 
programs run by museums and the like, because their parents cannot 
afford the fees for these, either. Nor will we likely find our older 
students in supervised summer jobs programs because budget cuts will 
affect these, as well. In fact, they are likely not even to find 
employment at a fast-food restaurant--hardly an academically enriching 
experience--because during this overall economic downturn, they will be 
competing with a lot of unemployed adults.
    So instead of having their school lessons reinforced by their 
summer experiences, which is the ``natural'' order of things for more-
advantaged children, our most vulnerable children will likely be 
learning the lessons of the street. And when they return to school in 
the fall, all too many of them will be academically behind where they 
were when they left school the previous spring--a summer learning loss 
for which our schools will be erroneously blamed.

Solutions

    Clearly, the only way to end this vicious cycle is with money--not 
only the money to make summer school available to every needy child, 
but a sufficient amount to make sure that such programs mimic as 
closely as possible the kind of enriching experiences that advantaged 
children get by virtue of having advantaged parents and living in 
resource-rich communities. Because the reason that States and school 
districts are eliminating or cutting back summer school or, in some 
cases, running poor programs, is not malice; it is money. And the 
reason that school officials are doing so is not their stupidity; they 
know that the combination of higher academic standards and summer 
school cutbacks means that more students will be retained in grade, 
which also dramatically increases the chance of their dropping out. 
They also know that each, let alone both, of these consequences costs 
schools and society more, financially and otherwise, than an investment 
in stemming summer learning losses.
    Rather, the reason we are losing summer school, and the reason we 
are facing more such betrayals of the promises made by the standards 
movement to students and schools, which continue to uphold their end of 
the bargain, is the failure of political leaders to secure dependable 
education funding and treat budget surpluses like seed corn for the 
future instead of an opportunity for reckless tax breaks.
    I also find it distressing that, while summer schools employing 
fully certified teachers and other qualified personnel--the people who 
make a demonstrable difference to students during the school year--are 
being slashed, the U.S. Department of Education has just issued 
preliminary guidance on supplemental services in Title I of NCLBA that 
allows providers to use unqualified personnel for remediating our most 
vulnerable youngsters. In light of the evidence that poor children gain 
as much, if not more, than other children while they are in our public 
schools, precious resources should not be devoted to supplemental 
service providers that do not have a comparable record of success and 
that do not employ qualified and appropriately certified or licensed 
individuals, especially when there is a clear alternative: summer 
school or after-school programs in our under appreciated public 
schools.
    I therefore urge the members of this Committee to join with the AFT 
and others to urge the Department to reconsider and instead require 
supplemental service providers to employ only certified teachers and 
other fully qualified staff.
    I also urge this Committee to take the lead in securing additional 
Federal funding, either through a new or existing program, such as the 
21st Century Schools program, to our distressed States for the express 
purpose of providing high-quality summer school and/or extended-day 
programs in our public schools, targeted especially on the youngsters 
who need such programs to keep them on track academically. Regrettably, 
the failure to provide emergency grants for this summer means that it 
is too late to help the youngsters denied summer school this year. But 
my proposal is not just intended as a stopgap measure during these hard 
economic times; I am also proposing it as a permanent part of the 
national education strategy for increasing academic performance and 
closing achievement gaps. So, Congress can still make it up to the 
youngsters who will get left behind this summer and also do right by 
all needy children, and I fervently hope you will.
    The strong support of the public for the No Child Left Behind Act 
was not for political reasons. It was, and is, simply and purely 
because, out of decency and pride, Americans want all our children's 
academic performance to improve and the achievement gap to be overcome, 
and they were persuaded that this legislation had the power to do so. 
In many respects, the fate of any legislation is unpredictable. What we 
can now say, however, and with considerable scientific assurance, is 
that any education strategy whose goal is ensuring that all children 
succeed must reckon as much with what happens to children when they are 
not in school as it does with what happens when they are in school if 
it is to be maximally effective.
    If this is to be the Congress that is credited with making the most 
substantial difference in our educational history in improving academic 
performance and eliminating the achievement gap, it will make just such 
a reckoning. And a good beginning would be to stanch the academic 
setbacks that occur when children are out of school and maximize the 
effectiveness of children's in-school experiences by increasing the 
reach and quality of summer school programs.

References

    Alexander, K.L., Entwisle, D.R., & Olson, L.S. (2001). Schools, 
Achievement, and Inequality: A Seasonal Perspective. Educational 
Evaluation and Policy Analysis, 23(2), 171-191.
    Educational Testing Service Policy Information Center. (Summer 
1993). Growth Through School. ETS Policy Notes, 5(3), pp. 1-4.
    Educational Testing Service Policy Information Center. (Summer 
1993). Home and School Differences. ETS Policy Notes, 5(3), pp. 6-8.
    Entwisle, D.R., Alexander, K.L. & Olson, L.S. (2000). Summer 
Learning and Home Environment. In R.D. Kahlenberg (Ed.), A Notion at 
Risk (pp. 9-30). New York: Century Foundation Press.
    Grissmer, D.W., Kirby, S.N., Berends, M., & Williamson, S. (1994). 
Student Achievement and the Changing American Family. Santa Monica, 
Calif.: RAND.
    Heyns, Barbara. (1978). Summer Learning and the Effects of 
Schooling. New York: Academic Press.
    Heyns, Barbara. (2001). ``Summer Learning and Some Are Not.'' Paper 
presented at After the Bell: Solutions Outside the School, organized by 
the NYU Center for Advanced Social Science Research and The Jerome Levy 
Economics Institute of Bard College, June 4-5, 2001.
    Jencks, C. & Phillips, M., eds. (1998). The Black-White Test Score 
Gap. Washington, DC.: Brookings Institution Press.
    Phillips, M., Crouse, J., & Ralph, J. (1998). Does the Black-White 
Test Score Gap Widen After Children Enter Schools? In C. Jencks & M. 
Phillips (Eds.), The Black-White Test Score Gap (pp. 229-72). 
Washington, DC.: Brookings Institution Press.
    Phillips, M. (2000). Understanding Ethnic Differences in Academic 
Achievement: Empirical Lessons from National Data. In D.W. Grissmer & 
J.M. Ross (Eds.), Analytic Issues in the Assessment of Student 
Achievement (pp. 103-132). Washington, DC.: U.S. Department of 
Education, National Center for Education Statistics.
    West, J., Denton, K., & Reaney, L.M. (2001). The Kindergarten Year: 
Findings From the Early Childhood Longitudinal Study, Kindergarten 
Class of 1998-99. Washington, DC., National Center for Education 
Statistics, U.S. Department of Education, Office of Educational 
Research and Improvement.
    West, J., Denton, K., & Germino-Hausken, E. (February 2000). 
America's Kindergartners. Statistical Analysis Report, Early Childhood 
Longitudinal Study. Washington, DC.: National Center for Education 
Statistics, U.S. Department of Education, Office of Educational 
Research and Improvement.

    Senator Clinton. [presiding]. Thank you very much for 
reminding us that this is part of a larger problem.
    Professor Cooper.

 STATEMENT OF HARRIS COOPER, UNIVERSITY OF MISSOURI, COLUMBIA, 
                               MO

    Mr. Cooper. Thank you for the opportunity to speak today 
about summer learning loss and the effectiveness of summer 
school. I have studied this topic for a decade now, and I have 
provided you with a written testimony that includes a policy 
brief. It presents in greater detail many of the points that I 
will make here today.
    The first thing to note is that the current school calendar 
was crafted at a time when about 85 percent of Americans lived 
according to an agriculture cycle. Prior to standardization, it 
was up to local communities to set the school calendar. In 
urban areas, such as Philadelphia and Baltimore, school might 
be in session for 11 months. In rural areas, students might be 
out of school in May and June for crop seeding, go back to 
school in July and August, and then have break again in 
September and October to help with the harvest.
    The 3-month hiatus in the current school calendar raises 
the question about what impact the long summer break might have 
on students. To find out, my colleagues and I undertook a 
synthesis of research on summer learning loss, or more 
specifically, whether students' standardized test scores 
declined over summer.
    We found 39 studies examining the effects of summer 
vacation. Thirteen provided enough information for us to use in 
a statistical analysis. The combination of these results, which 
is called a meta-analysis, indicated that summer learning loss 
equaled at least 1 month of instruction. On average, children's 
achievement test scores were 1 month lower when they returned 
to school in fall than when the students left in the spring.
    The meta-analysis also suggested that summer loss was more 
pronounced in math than reading. We speculated that children's 
home environments provide more opportunities to practice 
reading than math. Further, all students, regardless of their 
resources in their home, lost roughly equal amounts of math 
skill over summer. However, substantial economic differences 
were found in reading. For reading comprehension scores, all 
income groups declined, but far more so for disadvantaged 
students.
    On other reading measures, middle-class students showed 
gains in achievement over summer, but disadvantaged children 
showed losses. Again, the income difference may be related to 
differences in opportunities to practice and learn reading 
skills over summer. More books and reading opportunities likely 
are available for middle-class children.
    Next, my colleagues and I examined the effectiveness of 
summer school. We looked at effectiveness not only for 
preventing summer learning loss, but also for providing 
remedial instruction for students falling behind during the 
regular school year and for accelerated or enrichment 
instruction for students wishing to spend their summer in 
academic pursuits.
    We found that summer school serves multiple purposes for 
students, families and communities. For example, parents and 
communities hope that, in addition to the academic instruction, 
summer school will provide positive environments for students 
and thereby diminish juvenile crime. The current need for 
summer programs is driven by changes in American families, as 
well as by calls for an educational system that embodies 
highest academic standards.
    We examined and integrated the results of 93 evaluations of 
summer school. The synthesis revealed that summer programs have 
a clear, positive impact on the knowledge and skills of 
participants. The average student who goes to summer school 
jumps over about 5 percent to 10 percent of similar students 
who do not attend as measured by achievement test scores. 
Although all students benefit from summer school, students from 
middle-class homes showed larger positive effects than students 
from disadvantaged homes. We suspect this is because 
disadvantaged children often have multiple impediments to 
learning. Even with these impediments, however, summer school 
proved effective for children from poor families.
    Students at all grade levels benefited from remedial summer 
school, but students in the earliest grades and in high school 
benefited most. Consistent with our summer learning loss 
findings, remedial programs may have more positive effects on 
math than on reading because kids would lose more if they did 
not have math instruction, though, again, the effect on reading 
was clearly positive as well.
    Based on these results and others, we recommended that 
summer programs be provided with a stable source of funds and 
that funds be set aside to foster participation, especially 
among disadvantaged youth. We also made numerous 
recommendations for summer school implementers meant to ensure 
that programs were delivered in the most effective manner 
possible. The benefits of summer school for achievement are 
clear, and its positive effect may extend beyond the schoolyard 
gates.
    Again, thank you for inviting me, and I look forward to 
answering questions.
    [The prepared statement of Mr. Cooper follows:]

   Prepared Statement of Harris Cooper, Department of Psychological 
                    Sciences, University of Missouri

    Thank you for the opportunity to speak today about summer learning 
loss and the effectiveness of summer school. I have studied this topic 
for a decade now and have provided you with a written policy brief that 
presents in greater detail many of the points I will make here today.
    The first thing to note is that the current school calendar was 
crafted at a time when about 85 percent of Americans lived according to 
the agricultural cycle. Prior to standardization, it was up to local 
communities to set the school calendar. In urban areas, such as 
Philadelphia and Baltimore, school might be in session for 11 months. 
In rural areas, students might be out of school in May and June for 
crop seeding, go back to school in July and August, and then have break 
again in September and October to help with the harvest.
    The 3-month hiatus in the current school calendar raises the 
question of what impact the long summer break might have on students. 
To find out, my colleagues and I undertook a synthesis of the research 
on summer learning loss, or more specifically, whether students' 
standardized achievement test scores declined over summer. We found 39 
studies examining the effects of summer vacation. Thirteen provided 
enough information for us to use in a statistical analysis. A 
combination of these results, called a meta-analysis, indicated that 
summer learning loss equaled at least 1 month of instruction. On 
average, children's achievement test scores were 1 month lower when 
they returned to school in fall than when students left in spring.
    The meta-analysis also suggested that summer loss was more 
pronounced for math than for reading. We speculated that children's 
home environments provide more opportunities to practice reading than 
math. Further, all students, regardless of the resources in their home, 
lost roughly equal amounts of math skills over summer. However, 
substantial economic differences were found for reading. Reading 
comprehension scores of all income groups declined, but more so for 
disadvantaged students. On other reading measures, middle class 
children showed gains in achievement over summer, but disadvantaged 
children showed losses. Again, the income differences may be related to 
differences in opportunities to practice and learn reading skills over 
summer. More books and reading opportunities likely are available for 
middle class children.
    Next, my colleagues and I examined the effectiveness of summer 
school. We looked at effectiveness not only for preventing summer 
learning loss but also for providing remedial instruction for students 
falling behind during the regular school year, and for accelerated or 
enrichment instruction for students wishing to spend their summer in 
academic pursuits.
    We found that summer school serves multiple purposes for students, 
families, and communities. For example, parents and communities hope 
that, in addition to academic instruction, summer school will provide 
positive environments for students and thereby diminish juvenile crime. 
The current need for summer programs is driven by changes in American 
families as well as by calls for an educational system that embodies 
higher academic standards.
    We examined and integrated the results of 93 evaluations of summer 
school. The synthesis revealed that summer programs have a clear 
positive impact on the knowledge and skills of participants. The 
average student who goes to summer school jumps over about 5 percent to 
10 percent of similar students who do not attend, as measured by 
achievement test scores. Although all students benefited from summer 
school, students from middle class homes show larger positive effects 
than students from disadvantaged homes. We suspect this is because 
disadvantaged children often have multiple impediments to learning. 
Even with these impediments, however, summer school proved effective 
for children from poor families.
    Students at all grade levels benefit from remedial summer school, 
but students in the earliest grades and in high school may benefit 
most. Consistent with our summer learning loss findings, remedial 
programs may have more positive effects on math than on reading, though 
again, the effect on reading is clearly positive as well.
    Based on these and other results, we recommended that summer 
programs be provided with a stable source of funds and that funds be 
set aside to foster participation, especially among disadvantaged 
youth. We also made numerous recommendations for summer school 
implementers meant to ensure that programs were delivered in the most 
effective manner possible. The benefits of summer school for 
achievement are clear and its positive effectives may extend beyond the 
schoolyard gates.
    Again, thank you for inviting me. I look forward to answering your 
questions.
                                 ______
                                 
     Summer Learning Loss and the Effectiveness of Summer School: 
            Research-based Recommendations for Policymakers

   PAPER TO ACCOMPANY TESTIMONY BEFORE THE U.S. SENATE COMMITTEE ON 
         HEALTH, EDUCATION. LABOR, AND PENSIONS, JUNE 21, 2002.

    Portions of this research were supported by a grant from the U.S. 
Department of Education, National Institute on the Education of At-Risk 
Students (R306F60041-97). This policy brief was published in 2001 by 
the Southeastern Regional Vision for Education, Greensboro, NC 
(www.serve.org). The opinions expressed herein are those of the author 
and not necessarily the funding agency or publisher. Harris Cooper can 
be contacted by email at: <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="512626267f323e3e21342339113c3822223e2423387f343524">[email&#160;protected]</a>
    In 1999, a Cox Newspapers survey of the Nation's 10 largest school 
districts revealed a 20 percent increase in summer school enrollment, 
to well over 600,000 students (Mollison & Brett, 1999). By summer 2000, 
the New York Times reported the number of summer school attendees in 
these 10 districts had jumped to over 850,000 (Wilgoren, 2000). The Cox 
Newspaper research also revealed that nationwide about 5 million 
students, or 1 in 10 students attending elementary through high school, 
was enrolled in summer school. Further, between 1991 and 1999, the 
percent of public elementary schools eligible for Title I poverty aid 
that used the Federal funds to subsidize summer school programs rose 
from 15 percent to 41 percent.
    There is good reason to believe that the demand for summer school 
will continue to grow throughout the next decade. This prediction is 
based on three national trends. First, the nature of the American 
family has undergone dramatic changes. Reynolds Farley (1996), using 
the last four U.S. Censuses, found that most common today is a family 
headed by a single parent or one in which both parents work outside the 
home. The changes in American families suggest that the years ahead 
will bring increasing demands for Government-sponsored, school-based 
services for children when regular classes are not in session.
    Second, in the past two decades, many policymakers have become 
concerned about the global competitiveness of the American economy and 
the education system that drives it. Statistics from the National 
Commission on Time and Learning (1993) suggest that students in the 
United States spend less time in school than students in many other 
industrialized nations and less time studying core subjects.
    Finally, in addition to issues of global competitiveness, an 
emphasis has emerged nationally on higher academic standards and 
minimum competency requirements. The new standards and requirements 
have provided impetus for increased use of summer schools. For example, 
Chicago Public Schools has a policy that establishes district-wide 
standards of promotion for students completing 3rd, 6th, and 8th 
grades. If students do not meet minimum grade-equivalent reading and 
math scores, report card grades, and attendance criteria, they are 
either retained or must attend the Summer Bridge Program (Chicago 
Public School, 1997). In all, 27 percent of the Nation's school 
districts now impose summer school on poor-performing students as a 
condition for promotion (Mathews, 2000).
    In sum then, the push for more summer learning opportunities for 
children and adolescents will gather momentum from changes in the 
American family and from a focus on increasing the time children spend 
in formal education as a means for meeting higher academic standards 
and improving America's global economic position.
    This policy brief reviews research on the effectiveness of summer 
school programs. It begins with a short history of the current school 
calendar and a summary of research examining the impact of the long 
summer break on student achievement test scores. This is followed by a 
history of summer school and its goals. Next, a review of research is 
presented on whether summer school is effective and, if so, what 
program characteristics are associated with the most effective 
programs. Finally, the brief concludes with some recommendations for 
policies makers and practitioners.

Historical Roots of the Current School Calendar
    In the 19th century, school calendars reflected the needs of the 
families and communities served by each school district (Richmond, 
1977). Children who lived in agricultural areas rarely attended school 
during summer, or during planting and harvesting, so they could be free 
to help tend crops or livestock. If children lived in urban areas, it 
was not unusual for them to attend school for at least 2 of summer's 3 
months.
    By the turn of the century, family mobility and the growing 
integration of the national economy made it important to standardize 
the school curricula. Families moving from one community to another 
needed to find that children at the same age were learning and were 
expected to know roughly the same things in their new community as in 
their old one. This need for standardization resulted in the current 9-
month calendar compromise between town and country, and summer became a 
time without school for children regardless of where they lived 
(Association of California School Administrators, 1988).

Summer Learning Loss
    The 3-month hiatus in the American school calendar raises the 
question of what impact the long summer break might have on students. 
To find out, Cooper, Nye, Charlton, Lindsay, and Greathouse, (1996) 
undertook a synthesis of the research on summer learning loss, or more 
specifically, whether students' achievement test scores declined over 
the summer vacation. Thirty-nine studies were found examining the 
effects of summer vacation, 13 of which provided enough information for 
use in a statistical synthesis. A statistical combination of these 
results, called a meta-analysis, indicated that summer learning loss 
equaled at least 1 month of instruction. On average, children's 
achievement test scores were at least 1 month lower when they returned 
to school in fall than when students left in spring.
    This meta-analysis also found dramatic differences in the effect of 
summer vacation on different skill areas. Summer loss was more 
pronounced for math facts and spelling than for other tested skill 
areas. An explanation of this result rests on the observation that both 
math facts and spelling skills involve the acquisition of factual and 
procedural knowledge whereas other skill areas, especially math 
concepts and problemsolving and reading comprehension, are more 
conceptually based. Without practice, cognitive psychology suggests, 
facts and procedural skills are most susceptible to forgetting (e.g., 
Cooper & Sweller, 1987).
    The meta-analysis also suggested that summer loss was more 
pronounced for math overall than for reading overall. It may be that 
children's home environments provide more opportunities to practice 
reading skills than to practice mathematics.
    In addition to the influence of subject area, numerous differences 
among students were tested in the meta-analysis. Overall, there was 
little evidence to suggest that intelligence had an impact on the 
effect of summer break. Likewise, neither the student's sex nor 
ethnicity appeared to have a consistent influence on summer learning 
loss. Educators expressed special concern about the impact of summer 
vacation on the language skills of students who do not speak English at 
home, but the literature search found little evidence bearing on this 
issue.
    Finally, family economics was examined as an influence on what 
happens to children over summer. The meta-analysis revealed that all 
students, regardless of the resources in their home, lost roughly equal 
amounts of math skills over summer. However, substantial economic 
differences were found for reading. On some measures, middle class 
children showed gains in reading achievement over summer but 
disadvantaged children showed losses. Reading comprehension scores of 
both income groups declined, but more so for disadvantaged students. 
Again, the income differences may be related to differences in 
opportunities to practice and learn reading skills over summer, with 
more books and reading opportunities available for middle class 
children.

Table 1

    Summer Learning Loss
    Research reveals that:
    <bullet> On average, children lose 1 month on achievement test 
scores over the summer vacation.
    <bullet> Summer loss is greatest in math facts and spelling.
    <bullet> Summer loss is greater in math than reading.
    <bullet> Summer vacation increases disparities between middle class 
and disadvantaged students' reading scores

    The loss in achievement test scores suggests that it might be 
beneficial to continue summer remedial and enrichment programs. For all 
students, a focus on mathematics instruction in summer would seem to be 
most effective. Alternatively, if summer programs had the purpose of 
lessening inequities across income groups, then a focus on summer 
reading instruction for disadvantaged students would be most 
beneficial.
    It is important to point out, however, that the existence of summer 
learning loss cannot ipso facto be taken to mean summer educational 
programs will be effective remedial interventions. Summer school might 
not change the educational trajectory of students who took part in such 
programs. The impact of summer educational programs has to be evaluated 
on its own merits.
Summer School
    As with the school calendar in general, the impetus for summer 
programs for school-aged youth first resided in economic 
considerations. As the 20th century took hold, the economy of the 
United States shifted from an agricultural base to an industrial one. 
Most children were either immigrants from abroad who made their homes 
in large urban areas or they were part of the great migration of 
Americans from the farm to the city. Many children and adolescents held 
jobs during the summer and those who were idle were a cause of concern 
for city dwellers (Dougherty, 1981). However, the passage of the first 
child labor law in 1916 meant that school-aged children had little to 
do during their vacation from school. Community leaders demanded that 
organized recreational activities be made available for students when 
school was out. Today, the purposes of summer programs stretch far 
beyond the prevention of delinquent behavior but this certainly remains 
among summer school's latent, if not overt, functions.
    By the 1950s, educators realized that summertime held opportunities 
to remedy or prevent learning deficits (Austin, Rogers, & Walbesser, 
1972). Because the wealthy were able to hire tutors for their children, 
the educational summer programs made available through schools largely 
served students from disadvantaged backgrounds.
Goals of Summer School
    Summer programs to remedy learning deficits can be grouped into 
four categories. First, some summer programs are meant to help students 
meet minimum competency requirements for graduation or grade promotion. 
The Chicago Public Schools program mentioned earlier is of this sort. 
Second, secondary school students who fail a particular course during 
the regular academic year use summer school as an opportunity to retake 
the course. This is the type of program most people think of when they 
think of summer school.
    A third type of remedial summer school occurs in response to the 
movement to insure students with disabilities receive a free and 
appropriate education. In 1979, the United States District Court ruled 
that the Pennsylvania Department of Education had to provide a program 
beyond the regular school year for children with disabilities. The 
ruling was based on the premise that the long summer break would lead 
to regression of skills in students covered by the Individuals with 
Disabilities Education Act.
    Finally, the Elementary and Secondary Education Act of 1965 and its 
successors recognized the special needs of students residing in areas 
with high concentrations of poverty. These programs were meant to break 
the cycle of poverty through the provision of supplemental educational 
services. To accomplish this goal, the law suggested that children have 
full access to effective high-quality regular school programs and 
receive supplemental help through extended time activities. The latter 
injunction has led to the establishment of educational summer programs 
for disadvantaged youth.
    With the passage of time, the purposes of summer school have grown 
beyond the provision of remedial education. In 1959, Conant (1959) 
recommended that boards of education provide summer opportunities not 
only for students who were struggling in school but also for those who 
needed more flexible course schedules or who sought enriched 
educational experiences. Conant suggested that students who were 
heavily involved in extra-curricular activities or who held work-study 
positions could use summer school as a way to lighten their academic 
burden without delaying their graduation. Students who wished to 
graduate early could speed up their accumulation of credits. School 
administrators in the 1960s, faced with the space crunch created by the 
baby boom, saw the use of summer school to speed graduation as a way to 
make room for the growing number of students.
    Recently, summer vacation has also been embraced as an ideal time 
to provide specialized programs for students with academic gifts and 
other talents. Such programs often involve offering advanced 
instruction that goes beyond the typical course of study. At the high 
school level, the content of these courses might be based on college-
level curricula. Many enrichment and acceleration summer programs 
operate out of colleges on a fee basis, sometimes with scholarships 
available.
    Finally, summer school provides opportunities for teachers. Summer 
schools allow teachers to make additional money and to develop 
professional competencies.

Table 2

    Goals of Summer School
    <bullet> Prevent delinquent behavior.
    <bullet> Remediate or prevent learning deficits.
    <bullet> Help meet minimum competency requirements.
    <bullet> Repeat failed courses or grade levels.
    <bullet> Prevent regression for students with learning 
disabilities.
    <bullet> Break the cycle of poverty.
    <bullet> Provide flexible high school course scheduling.
    <bullet> Accelerate progress for gifted students.
    <bullet> Offer teachers additional compensation.

The Effectiveness of Summer Programs
    A meta-analysis of summer school research conducted by Cooper, 
Charlton, Valentine, and Muhlenbruck (2000) summarized the results of 
93 program evaluations. Five principle conclusions were drawn from the 
research. First, summer school programs focused on lessening or 
removing learning deficiencies have a positive impact on the knowledge 
and skills of participants. Overall, students completing remedial 
summer programs can be expected to score about one-fifth of a standard 
deviation higher than the control group on outcome measures. This 
conclusion was based on the convergence of numerous estimates of summer 
school effects.
    The overall impact of summer school should be viewed as an average 
effect found across diverse programs evaluated with a wide variety of 
methods. These variations influence the effect on programs in 
significant ways. Put in practical terms, the overall estimate of 
effect could guide policy decisions at the broadest level, say by 
Federal or State policymakers. However, a local official about to 
implement a specific summer program for a particular type of student 
may find effects quite different from the overall finding. Generally 
however, both the overall findings and those associated with specific 
categories of programs suggested the effect of most programs is likely 
to be greater than zero.
    The second conclusion from the meta-analysis was that summer school 
programs focusing on acceleration of learning or on other goals also 
have a positive impact on participants, roughly equal to programs 
focusing on remedial goals. However, because of the smaller number of 
evaluations the robustness of these findings could not be tested across 
student, program, and outcome variations.
    The third conclusion from the meta-analysis was that summer school 
programs have more positive effects on the achievement of middle class 
students than on students from disadvantaged backgrounds. The 
difference between the economic groups was significant whether or not 
effects were adjusted for methodological confounds and regardless of 
the assumptions used to model error variance. This finding may be due 
to the availability of more resources for middle class families 
supplementing and supporting the activities occurring in the classroom 
in ways that may augment the impact of the summer program. 
Alternatively, summer programs in middle class school districts may 
have better resources available, leading, for example to smaller 
classes. Heyns (1978) suggested that these economic differences in 
summer school outcomes might occur because ``programs are less 
structured and depend on the motivation and interest of the child'' (p. 
139). Finally, the learning problems of disadvantaged youth may be 
simply more intransigent than the problems of middle class students.
    Two points should be emphasized. First, even though the effect was 
larger for middle class students, all estimates of summer school's 
impact on disadvantaged students were significantly different from 
zero. Second, if summer programs are targeted specifically at 
disadvantaged students they can serve to close the gap in educational 
attainment.
    The fourth conclusion of the meta-analysis was that remedial summer 
programs have larger positive effects when the program is run for a 
small number of schools or classes or in a small community, although 
even the largest programs showed positive average effects. The size-
related program characteristics may serve as proxies for associated 
differences in local control of programs. That is, small programs may 
give teachers and administrators greater flexibility to tailor class 
content and instruction to the specific needs of the students they 
serve and to their specific context. Small programs also may facilitate 
planning, and may remove roadblocks to the efficient use of resources. 
Among the reasons cited by teachers and parents for the failure of 
summer programs was the last-minute nature of decisionmaking and the 
untimely arrival of needed materials. These problems may be more 
prevalent when programs are large. As a caution to this interpretation, 
the size-related program variables might also be related to the 
economic background of the community being served, with larger programs 
serving poorer communities. If this is the case then economics might be 
the underlying causal factor, not local control.
    Finally, the meta-analysis revealed that summer programs that 
provide small group or individual instruction produced the largest 
impact on student outcomes. Further, those evaluations that solicited 
comments from teachers about the positive aspects of summer school 
often suggested that small group and individual instruction were among 
the program's strengths. There is no reason why the more general 
educational literature showing a relation between class size and 
achievement ought not apply to summer programs as well (Mosteller, 
1995).
    In addition to these principal conclusions, there were five other 
conclusions drawn from the research, but with less confidence. First, 
summer programs that required some form of parent involvement produced 
larger effects than programs without this component. Second, remedial 
summer programs may have a larger effect on math achievement than on 
reading. It is possible to interpret this finding in relation to summer 
learning loss. Recall that the review of summer loss research revealed 
students' achievement scores in math showed more of a drop during 
summer than reading achievement scores. If this is the case, then 
control group students in summer school studies likely received less 
practice in math than in reading. Thus, the difference in the 
experiences of students not in summer programs may explain the 
difference in summer school effects.
    The finding that summer school may be more efficacious for math 
than reading outcomes should not create the impression that promoting 
literacy ought to be a secondary goal of summer programs. Summer school 
has positive effects on reading as well as math. Further, illiteracy is 
a strong predictor of negative social behavior in both children and 
adults (Adams, 1991).
    The third tentative conclusion from the meta-analysis was that the 
achievement advantage gained by students who attend summer school may 
diminish over time. However, this finding should not be taken to 
indicate that summer school effects are themselves not long-lasting. 
Multiple, subtle processes were uncovered that might serve to obscure 
lasting effects, the most obvious of which is that students who do not 
attend summer programs may receive similar programs during the school 
year that are not needed by summer attendees. Also, summer school may 
have positive effects on developmental trajectories that go unnoticed 
because of how a study is carried out.
    Fourth, remedial summer school programs had positive effects for 
students at all grade levels, although the effects may be most 
pronounced for students in early primary grades and secondary school 
than in middle grades. The underlying cause of this finding may be the 
existence of three largely independent approaches to summer instruction 
associated with different grade levels. For example, the Albuquerque 
Public Schools (1985) described the results of interviews with teachers 
following a summer program for all students. The interviews revealed 
elementary school teachers felt summer school gave them the opportunity 
to be more creative and to individualize instruction. Middle school 
teachers said they emphasized study and organizational skills more than 
during regular session. High school teachers, because of the credit 
structure, taught classes in a manner that adhered most closely to 
regular session classes. If these differences in approaches to summer 
school hold generally, we might expect the greatest achievement gains 
in the earliest and latest grades because it is here that teachers 
place the greatest emphasis on instruction in subject matter. Summer 
school in the middle years may place more emphasis on the teaching of 
subject-related study skills that eventually, but not immediately, have 
an impact on achievement outcome measures.
    Finally, summer programs that undergo careful scrutiny for 
treatment fidelity, including monitoring to insure that instruction is 
being delivered as prescribed, monitoring of attendance, and removal 
from the evaluation of students with many absences may produce larger 
effects than unmonitored programs.
    There were two findings of the meta-analysis that deserve mention 
because they did not reveal consistent or significant results. First, 
there was inconsistent evidence regarding whether or how the 
achievement label given to students was associated with the amount of 
benefit they derived from remedial summer programs. As noted earlier, 
one impetus for summer school is the Federal-mandate requiring that 
extended year services be available to children with disabilities. The 
meta-analysis showed clear and reliable benefits of summer school for 
these children, but these benefits appeared no greater in magnitude 
than the benefits for other students.
    Second, summer school remedial programs that require attendance 
appeared no less effective, and perhaps are more effective, than 
programs that were voluntary. While volunteering may serve as an 
indicator of motivation and engagement that would positively influence 
the impact of the summer program, it may be that compulsory attendance 
requirements are associated with student performance levels that are 
most likely to benefit from summer school activities.

Table 3

    Effectiveness of Summer School
    Research reveals that:
    <bullet> Remedial summer school programs have a positive academic 
impact on participants.
    <bullet> Summer school programs focusing on multiple goals or 
acceleration also have a positive impact on participants.
    <bullet> Summer school programs have more positive effects on 
middle class students than on students from disadvantaged backgrounds.
    <bullet> Remedial summer programs have larger positive effects 
when:
    <bullet> The program is run for a small number of students and 
schools in a small community.
    <bullet> The program provides small group or individual instruction
    <bullet> Remedial summer programs may also have larger effects:
    <bullet> When parent involvement is required.
    <bullet> On math achievement than on reading.
    <bullet> In early primary grades and high school than in middle 
grades.
    <bullet> When they undergo careful scrutiny for treatment fidelity.
    <bullet> The effect of remedial programs may diminish over time.
Implications for Summer School Policies and Practices
    The research results can be used to propose some guidelines to 
policymakers and program implementers concerning the funding, 
development, and operation of summer schools.
    Most obviously, Federal, State, and local policymakers should 
continue to fund summer school programs. The research demonstrates that 
summer programs are effective at improving the academic skills of 
students taking advantage of them. Further, summer school likely has 
positive effects well beyond those that have been measured in past 
research. For example, summer programs may inhibit delinquency among 
idle youth.
    To ensure that summer programs are most effective and are accepted 
by the general public, policymakers should require that a significant 
portion of funds for summer school be spent on instruction in 
mathematics and reading. For single-parent families and for families in 
which both parents work outside the home, summer school will serve a 
childcare function. For children who live in high crime and high 
poverty areas, summer programs will provide safe and stimulating 
environments clearly preferable to the alternatives. However, summer 
programs are proven vehicles to remedy, reinforce, and accelerate 
learning and this opportunity should not be missed.
    Third, policymakers should set aside funds for the specific purpose 
of fostering participation in summer programs, especially participation 
by disadvantaged students. Summer programs often face serious problems 
in attracting students and maintaining their attendance. They compete 
for youthful attention with alternative activities that are often more 
attractive, but less beneficial. Even the most well-conceived program 
will fail if students choose not to enroll or attend. Policymakers 
should earmark funds for transportation to and from summer programs and 
for food service at the program site. Policymakers might even make 
provisions for siblings to attend summer programs so that parents will 
not keep older brothers and sisters home to provide childcare for 
younger family members.
    Policymakers should offset the mandate for reading and math 
instruction by providing for significant local control concerning 
program delivery. The research suggests the possibility that flexible 
delivery systems may lead to important contextual variations that 
significantly improve the outcomes of summer programs. Therefore, 
policymakers ought to resist the temptation to micromanage programs and 
give local schools and teachers leeway in how to structure and deliver 
programs.
    Finally, policymakers should require rigorous formative and 
summative evaluation of program outcomes. Credible evaluations provide 
the accountability that is called for to justify expenditure of public 
funds. Policymakers can make a substantial contribution to future 
decisionmaking by requiring and providing funds for systematic, ongoing 
program evaluation.

Table 4

    Implications of Research for Summer School Policies and Practices
    Policymakers should:
    <bullet> Continue to fund summer school programs.
    <bullet> Require that funds for summer school be spent on 
instruction in mathematics and reading.
    <bullet> Set aside funds for the purpose of fostering participation 
in summer programs, especially by disadvantaged students.
    <bullet> Provide for significant local control concerning program 
delivery.
    <bullet> Require rigorous formative and summative evaluation of 
programs.

    Practitioners should:
    <bullet> Plan early.
    <bullet> Provide program and staffing continuity from year to year.
    <bullet> Use evaluations to identify successful sites and program 
content.
    <bullet> Integrate summer teaching with staff development.

    There are numerous suggestions for how summer programs should be 
implemented that can be gleaned from the research. For example, surveys 
of teachers often point to a lack of planning time and late-arriving 
program materials as two of the most severe impediments to the success 
of a summer program. Thus, just as policymakers need to provide stable 
and continuing sources of funds for summer schools, program 
implementers need to plan early. The pragmatics of program operation 
will take on a higher priority as summer schools come to be seen less 
as ``add-ons'' and more as integral parts of the array of services 
provided by schools.
    Related to planning is the need for program implementers to provide 
continuity from year to year. Priority for staffing should be based on 
past participation in the summer program itself so that teachers, 
administrators, aides, and support staff who took part in past years 
are given the first opportunity to be involved again. Evaluations 
should be used to continue successful elements of a program, from site 
locations to program content, and to discontinue unsuccessful ones.
    Finally, program implementers might also consider integrating 
summer staff development activities for teachers with the teaching of 
summer school. The relatively small classes and relaxed atmosphere that 
many summer programs provide could make them an ideal laboratory for 
teachers to experiment with new curricula or pedagogical approaches. 
For example, teachers might learn about and discuss a new teaching 
strategy in the afternoon and then practice the approach using the next 
morning's summer school class. The coupling of staff development and 
summer teaching might also increase the pool of teachers interested in 
taking part.
    Policymakers and practitioners might also consider more innovative 
ways of recasting summer school to take advantage of what the research 
reveals about summer learning loss and successful summer programs. For 
example, a ``Running Start'' summer program might commence close to the 
beginning of the new school year rather than follow on the heels of the 
old year, as is typical of many current programs. It might also enlist 
the participation of regular classroom teachers, although they need not 
be full-time summer instructors. Regular class teachers might function 
as the resource teacher who pulls out students from the ongoing summer 
class routine. The teachers would meet with, get to know, assess the 
strengths and weaknesses of, and begin instructing students who will be 
in their class when the new regular session begins. This strategy would 
seem most beneficial for students who are struggling in school, need 
special attention, or have the potential to present behavior problems 
when school begins.
    This running start might smooth the transition to the new school 
year by causing less time to be spent reviewing material when classes 
begin and, hopefully, diminishing disruptions caused by struggling 
students. These outcomes should benefit all class members, not just the 
program participants.
Conclusion
    The 9-month school calendar was adopted in America to accommodate 
the needs of a family-based, agrarian economy. In areas of the country 
where the 9-month school did not fit the economy, summer programs were 
quickly developed to prevent the negative social behaviors associated 
with idle youth. Educators soon discovered the potential of summer 
programs to improve learning. Summer education programs were viewed as 
especially attractive for children from homes with limited resources 
and for students with special learning needs. Although the benefit 
varies according to characteristics of the child and program content 
and delivery, the generally positive effects of summer school for those 
who participate are unmistakable.

References

    Adams, M.J. (1991). Beginning to Read: Thinking and Learning About 
Print. Cambridge, MA: MIT Press.
    Albuquerque Public Schools. (1985). What I Did Instead of Summer 
Vacation: A Study of the APS Summer School Program. Albequerque, NM: 
Albuquerque Public Schools. (ERIC Document Reproduction Service No. ED 
281 932).
    Association of California School Administrators (1988). A Primer on 
Year-Round Education. Sacramento, CA: Author.
    Austin, G.R., Rogers, B.G. & Walbesser, H.H. (1972). The 
Effectiveness of Summer Compensatory Education: A Review of the 
Research. Review of Educational Research, 42, 171-181.
    Chicago Public Schools (1997). Guidelines for Promotion in the 
Chicago Public Schools. Chicago Public Schools: Chicago, IL.
    Conant, J.B. (1959). The American High School. New York: McGraw 
Hill.
    Cooper, G. & Sweller, J. (1987). Effects of Schema Acquisition and 
Rule Automation on Mathematical Problem-solving Transfer. Journal of 
Educational Psychology, 79, 347-362.
    Cooper, H., Chalton, K., Valentine, J. & Muhlenbruck, L. (2000). 
Making the Most of Summer School. Malden, MA: Blackwell.
    Cooper, H., Nye, B., Charlton, K., Lindsay, J. & Greathouse, S. 
(1996). The Effects of Summer Vacation on Achievement Test Scores: A 
Narrative and Meta-analytic Review. Review of Educational Research, 66, 
227-268.
    Dougherty, J. W. (1981). Summer School: A New Look. Bloomington, 
IN: Phi Delta Kappa.
    Farley, R. (1996). The New American Reality: Who We Are, How We Got 
Here, Where We Are Going. New York, NY: Russell Sage Foundation.
    Heyns, B. (1978). Summer Learning and the Effects of Schooling. New 
York, NY: Academic Press.
    Mathews, J. (2000, June 13). A Hot Debate Over Summer School 
Classes. The Washington Post, A-24.
    Mollison, A. & Brett, J. (1999, July 6). Now More Than Ever, 
School's in for Summer. The Atlanta Constitution, A1, A4.
    Mosteller, F. (1995). The Tennessee Study of Class Size in Early 
Grades. Future of Children, 5(2), 113-127.
    National Commission on Time and Learning. (1993). Research 
Findings. ERIC Document No. ED372491.
    Richmond, M.J. (1977). Issues in Year-Round Education. Hanover, MA: 
Christopher Publishing House.
    Wilgoren, J. (2000, July 5). Summer Classes Expanding in Push to 
Improve Skills. The New York Times, A1, A14.

    Senator Clinton. Thank you very much, Professor Cooper.
    Ms. Ramoglou, thank you for being here and being part of 
this panel.

  STATEMENT OF CHRISTINA RAMOGLOU, EXECUTIVE DIRECTOR, ROGERS 
             SCHOOL COMMUNITY CENTER, STAMFORD, CT

    Ms. Ramoglou. Good morning. Thank you, Senator Clinton, 
Chairman Dodd, for the opportunity to testify about the need 
for summer school programs. I have to share with you this is 
the first time I am in a hearing room, so I hope I am not too 
nervous.
    Senator Clinton. You are doing great.
    Ms. Ramoglou. Today, I would like to share with you what, 
in essence, is a tale of two cities named Stamford.
    The families in the first Stamford are very affluent, they 
have an average median household income of $61,000. The value 
of their homes range from $500,000 to $1.5 million. Many of 
their children attend public schools, some may attend private 
schools. They have at least one computer in their home and use 
it extensively for school projects. The children of these 
families have the opportunity to attend extracurricular 
activities and take advantage of all of the enriching, cultural 
and arts experience that the city of Stamford and surrounding 
communities, especially the greater New York metropolitan area 
have to offer after school and during the summer.
    These children most likely will not be required to attend 
Stamford summer schools due to low grades or test scores. More 
likely than not, they will be attending private summer day 
camps or even sleep-away camps.
    Now let us meet some of the other families in the other 
Stamford. Their average median household income is $20,000. 
This entitles their children to have free or reduced lunch in 
the Stamford public schools where the children are students. 
They probably do not own their own home. They are tenants and 
meeting their rent is very difficult, since 1-bedroom studios 
begin renting at $1,400 per month. As a matter of fact, if they 
are not receiving Section 8 housing subsidies, they cannot 
afford to live in Stamford unless they are sharing housing with 
other relatives or friends.
    These families are probably also making monthly visits to 
the local food bank and receiving clothing and household 
supplies from Person-to-Person, a local philanthropic agency. 
More times than not, the children of these families go home 
directly after school. Many of them are the caregivers of their 
younger brothers and sisters since both of their parents or 
other adults in the household are working, sometimes even 2 and 
3 jobs paying the minimum wage.
    These children do not have many, if any, opportunities to 
attend the rich cultural arts experiences the city of Stamford 
and surrounding communities have to offer. More likely than 
not, they do not own a computer, and an adult is not at home 
who can give them homework assistance when they need it. The 
likelihood is that the adults at home have limited English 
proficiency, attested to by the fact that 55 different 
languages are spoken in the homes of Stamford children. The 
most common are Spanish, Creole, Polish, Russian, French, 
Chinese, Albanian, Portuguese and Bengali.
    Let us also keep in mind the children of those families who 
do receive free or reduced lunch, however, are not poor enough 
to meet the income eligibility guidelines for childcare 
assistance subsidies. These families cannot afford to pay the 
going rate for after-school or summer camp programs offered by 
many of our local agencies.
    The good news is that some of the children will be able to 
participate in an after-school or summer school program either 
because their families meet the income eligibility guidelines 
to receive child care subsidies or because they attend one of 
the schools receiving Federal 21st Century Community Learning 
Center funding. The disadvantage here is that Connecticut will 
close the childcare subsidy program to new applicants at the 
end of this month, and only two Stamford schools are 21st 
Century CLC schools. The prospects of other schools receiving 
funds look rather bleak, especially if there is no increase in 
Federal funds, in light of proposed State cuts.
    To continue our tale, approximately 2,500 children in 
Stamford are eligible to receive free or reduced lunch, while 
2,000 Stamford school children have received letters informing 
them they are required to attend summer school. You might be 
thinking, ``Excellent. We in Stamford are trying to help these 
children, and we are working on closing the gap between the 
haves and the have-nots, between the fortunate and the not-so-
fortunate.'' Yes, we are trying. However, due to budget 
deficits, we are sending 1,000 less children this year. Just 
this week, the Stamford Advocate, our local paper, has featured 
front-page articles and editorials about our school system's 
projected approximately $2.5-million deficit, citing unexpected 
health insurance, special education, and summer school expenses 
as the cause.
    Senators, I have been involved with before- and after-
school and summer programs for many years. I have participated 
in the Lights on After School Campaign sponsored by the After 
School Alliance. I have served as past treasurer and board 
member of NSACA, as vice president and current member of CSACA, 
the Connecticut affiliate. Through my involvement and 
experience in the field and, yes, even in the trenches, I know 
you are familiar with the research on the positive impact of 
affordable, quality after-school and summer programs on 
children and the negative impact if these programs are not 
available.
    You are familiar with the research which states that the 
quality of these programs directly impacts children's success 
in school, also that the time in after-school and summer 
programs is directly related to the rise or decline of 
delinquency, juvenile crime, and teen pregnancy prevention, and 
our others have spoken about the summer slide. So I am not 
going to repeat that.
    Our children deserve to have equal opportunities, equal 
access. They deserve the tools and skills to help them succeed. 
Please create the systemic reforms and allocate the funding 
that will enable our schools and our social and community 
organizations to help all children succeed. We need more after-
school programs, we need more summer school programs. Our 
social service agencies and community organizations, such as 
ROSCCO, need support and assistance to do their work and work 
with the schools in collaboration. We serve 750 children in 
before- and after-school and summer programs. Eighty-five 
percent of these receive free or reduced lunch.
    Last week, I was reminded of a ``Simpsons'' episode, which 
satirically advocated holding prisoners in schools and using 
the savings on prison costs for school programs, but this idea 
is no joke. In reality, the most effective way to allocate 
resources over the long run is to invest them in our children's 
education, social and emotional development.
    Can we of this great and most powerful Nation afford to 
incarcerate, but not to educate? Can we, as a Nation, afford to 
have high school graduates who cannot read; workers who are not 
skilled; future citizens who are not productive members of this 
great society? We must find the way to provide for the 
education and success of our children--all of our children, 
regardless of where they might live, what their language might 
be or which language they speak at home or what their family 
income might be.
    In which Stamford would you want your children to live?
    Thank you.
    [The prepared statement of Ms. Ramoglou follows:]

 Prepared Statement of Christina Ramoglou, Executive Director, Rogers 
                 School Community Center, Stamford, CT

    Good Morning. Thank you Senator Dodd, Chairman Kennedy, Senator 
Gregg, and Members of the Committee for the opportunity to testify 
about the need for summer school programs.
    My name is Christina Ramoglou; I am a citizen of the wealthiest and 
most powerful country on earth. I am a resident of Connecticut, the 
wealthiest State of this great Nation and my family and I live in 
Fairfield County, Connecticut's most affluent. I have lived in the city 
of Stamford since I was 3 years old. Stamford has a population of 
110,000 and is located on Long Island Sound wedged between Greenwich 
and Darien, Connecticut.
    I am a graduate of the Stamford Public School System and my son 
will be a senior at Stamford High School in September. I am here today 
as Executive Director of the Rogers School Community Center 
Organization, otherwise known in Stamford as ROSCCO Inc. ROSSCO is a 
local not-for-profit organization established in 1975, which 
administers and offers school-based family and children support 
programs. Our board of directors is volunteer parents who are present 
or past program participants. I am an educator and I have held the 
position of ROSCCO Executive Director for 15 years.
    Today, I would like to share with you what is, in essence, a tale 
of two cities named Stamford.
    The families in the first Stamford are very affluent; they have an 
average median household income of $61,000. The value of their homes 
ranges from $500,000 to $1,500,000. Many of their children attend 
public schools some may attend private schools. They have at least one 
computer in their home and use it extensively for school projects. The 
children of these families have the opportunity to attend 
extracurricular activities and take advantage of all of the enriching 
cultural and arts experiences the city of Stamford and surrounding 
communities and the greater New York metropolitan area have to offer 
after school and during the summer. These children most likely will not 
be required to attend the Stamford Summer Schools due to low grades or 
test scores. More likely than not, they will be attending private 
summer day camps or even sleep away camps.
    Now let's meet some of the other families in the other Stamford. 
Their average median household income is $20,000. This entitles their 
children to have free or reduced lunch in the Stamford Public Schools 
where their children are students. They probably do not own their own 
home. They are tenants and meeting their rent is very difficult since 
one-bedroom studios begin renting at $1,400 per month. As a matter of 
fact, if they are not receiving Section 8 housing subsidies, they 
cannot afford to live in Stamford unless they are sharing housing with 
other relatives. These families are probably also making monthly visits 
to the local food bank and receiving clothing and other household 
supplies from Person-to-Person, a local philanthropic agency.
    More times than not, the children of these families go home 
directly after school. Many of them are the caregivers for their 
younger brothers and sisters, since both of their parents or other 
adults in the household are working, sometimes even two and three jobs. 
These children don't have many, if any opportunities, to attend the 
rich cultural and arts experiences the city of Stamford and surrounding 
communities have to offer. More likely than not they do not own a 
computer and an adult is not at home who can give them homework 
assistance when they need it. The likelihood is that the adults at home 
have limited English proficiency, attested to by the fact that 55 
different languages are spoken in the homes of Stamford children. The 
most common ten (other than English) are Spanish, Creole, Polish, 
Russian, French, Chinese, Albanian, Portuguese and Bengali.
    Let's also keep in mind the children of those families who do 
receive free or reduced lunches however who are not poor enough to meet 
the income eligibility guidelines for childcare assistance subsidies. 
These families cannot afford to pay the going rate for afterschool or 
summer camp programs offered by many local agencies.
    The good news is that some of the children will be able to 
participate in an afterschool or summer school program, either because 
their families meet the income eligibility guidelines to receive 
childcare subsidies or because they attend one of the schools receiving 
Federal 21st Century Community Learning Centers funding. The 
disadvantage here is that the State will close the Child Care Subsidy 
Program to new applicants at the end of this month and only two 
Stamford schools--the Hart Magnet Elementary and the Cloonan Middle 
School--are 21st Century CLC Schools. The prospects of other schools 
receiving funds look rather bleak, especially if there is no increase 
in Federal funds, in light of proposed State and local cuts.
    To continue our tale, approximately 2,500 children in Stamford are 
eligible to receive free or reduced lunch, while 2,000 Stamford 
schoolchildren in grades K-12 have received letters informing them they 
are required to attend summer school. You might be thinking 
``Excellent, we in Stamford are trying to help these children, and we 
are working on closing the gap between the haves and the have-nots, 
between the fortunate and the not so fortunate.'' Yes, we are trying. 
However due to budget deficits; we are sending 1,000 less children to 
summer school this year. Because of funding or lack thereof, only 
children in targeted grades will be invited to attend summer school. 
Just this week, the Stamford Advocate, our local paper, has featured 
front-page articles and editorials about our school system's projected 
$1,000,000-$2,800,000 deficit citing ``unexpected health insurance, 
special education and summer school expenses'' as the cause.
    Senators, I have been involved with before- and afterschool and 
summer programs for many years. I have participated in the Lights on 
After School Campaign sponsored by the After School Alliance. I have 
served as a past treasurer and board member of NSACA, the National 
School Age Care Alliance, and a vice president and current board member 
of the Connecticut School Age Care Alliance. Through my involvement and 
experience in the field and yes, the trenches, I know you are familiar 
with the research on the positive impact of affordable, quality, 
afterschool and summer programs on children, and the negative impact if 
these programs are not available. You are familiar with the research, 
which states that the quality of these programs directly impacts 
children's success in school. Also, the time spent in afterschool and 
summer programs is directly related to the rise or decline of 
delinquency, juvenile crime and teen pregnancy prevention.
    Our children deserve to have equal opportunities, equal access; 
they deserve the tools and skills to help them succeed. Please create 
the systemic reforms and allocate the funding that will enable our 
schools and our social and community organizations to help all children 
succeed. We need more afterschool programs. We need more summer school 
programs. Our social service agencies and community organizations need 
support and assistance to do their work. ROSCCO serves more than 750 
children in before, afterschool, and summer programs. 85 percent of the 
250 children in the ROSCCO summer programs receive free or reduced 
lunches.
    Last week, I was reminded of a ``Simpsons'' episode which 
satirically advocated holding prisoners in schools and using the 
savings on prison costs for school programs. But, this idea is no joke. 
In reality, the most effective way to allocate resources over the long 
run is to invest them in our children's educational, social, and 
emotional development.
    Can we of this great and powerful Nation afford to incarcerate but 
not to educate? Can we, as a Nation, afford to have high school 
graduates who cannot read; workers who are not skilled; and future 
citizens who are not productive members of this great society? We must 
find the way to provide for the education and success of our children--
all of our children, regardless of where they might live, what language 
they might speak at home, or what their family income might be.
    In which Stamford would you want your children to live?

    Senator Dodd. [presiding]. Excellent, excellent testimony. 
I am very proud to represent you.
    Ms. Ramoglou. Thank you. I am very proud of you, also.
    Senator Dodd. You do great work.
    My colleagues, let me express Senator Sessions is going to 
try and rejoin us, and Senator Clinton is heading up to New 
York and so wanted to be here for as long as she could, but 
apologizes for having to leave a little earlier. We are going 
to leave the record open, by the way, for Members who have some 
questions they would like to submit to all of you so we have a 
complete record on this.
    I have got to tell you, when I was getting ready for the 
hearing, the notion of summer school, I almost have this sort 
of a Pavlovian response to the word, as a lot of children may. 
I guess the idea of summer school always conjured up in my mind 
is things did not go well during the academic year, and so you 
went to summer school, either to pick up in an area you had not 
done as well as you should have. I remember a couple of courses 
in Latin I had to do some summer work, and I dreaded it. It was 
something I did not look forward to particularly.
    I have got a relative of mine who has some learning 
disabilities, and they are working, and so summer school 
becomes an opportunity for this child to really be able to try 
and stay up and to stay even. The notion of having time off in 
the summer to be carefree and not having to worry about 
academic exercises is sort of one reaction. But I think if we 
look at it in a broader context, as you all have here, then I 
think we begin the realize the value of it.
    One of the things I wanted to begin the questioning with is 
that notion, in a sense, if we can talk about this slide, in a 
sense, and begin with you, Sandra, if I could, that the notion 
I almost heard, I thought, was that this is something not just 
for students who may not have performed well in a particular 
course or courses, although it may do that as well, but that we 
are talking about something more broad-based here than taking a 
child who did not do as well in math or reading or whatever 
else it might be and filling in, in that gap over the summer, 
so that when it comes the fall, they are on an even, level 
playing field with the student who did do well and left the 
class in June.
    I wonder if you might address that. Because, obviously, if 
we are talking about eliminating these programs, the gap of 
some, everyone who learned on the same level and starting up, 
you are going to have a disparity between--as you point out--
between children who come from less-advantageous families 
economically than others. But if you are a child that was a bit 
behind, for whatever reason, either because of language 
proficiency, slight learning disabilities, whatever it may be, 
if you are a bit behind in June, and then there is no place to 
fill in the gap, it seems to me that gap is even wider with a 
child who is trying to catch up.
    I wonder if you might just address that.
    Ms. Feldman. Well, you know, if you are taking Latin, and 
you did not do your homework, and you have to go to summer 
school----
    Senator Dodd. You sound like my mother. Please don't. I am 
having this reaction here.
    [Laughter.]
    Ms. Feldman. So, you know, that should not go away. But 
what we are talking about here, especially when you talk about 
very young children, children learn in many, many different 
ways. Children learn through playing, they learn through 
sports, they learn through all kinds of recreational and 
cultural activities, they learn from interaction with other 
kids, they learn from seeing new places that they never would 
have had the opportunity to see, they learn from learning about 
animals that they otherwise might never have come into contact 
with. They have the opportunity, if they are a city kid, to go 
to summer camp in the country.
    So the worst thing we could do is think about summer school 
as punishment. Summer school should not be punishment and 
especially when you are talking about very young children. The 
years kindergarten, first grade, second grade, third grade, if 
we had children during the summer--poor children in 
particular--able to engage in the kinds of activities that more 
advantaged kids just take for granted, you know, it is the 
stuff that Senator Clinton was talking about, that families 
just do with their children. They take them on family 
vacations. Well, poor families may not be taking vacations 
during the summer or have a weekend house to go to, or have the 
wherewithal to take a picnic to a lake a hundred miles away.
    So those are the kinds of experiences that we can organize 
for children. The schools can do it in collaboration with 
community-based organizations. It is happening in a lot of 
places where children could actually look forward to it. I do 
not think that for most children you want them to get the 
feeling that, oh, you know, I am not going to get any kind of a 
break here. You do need some kind of a break, and some children 
will need to be in remedial classes, hopefully surrounded by 
some pleasurable activities as well. But we need to think about 
summer school much more broadly.
    Senator Dodd. Dr. Cooper and Ms. Ramoglou, do you want to 
comment on this at all?
    Ms. Ramoglou. Yes, I would like to share our experience in 
Stamford.
    We have a citywide initiative with the Stamford Public 
Schools where the academics are done in the morning from 9 till 
11--they are offered by teachers in the school system--and from 
thereafter, through collaboration with all of the community 
agencies, the children are coming into summer programs. They do 
not have to choose between going to school or daycare, as they 
used to in the past. We have worked out transportation. So this 
collaboration is in its third year, and each year it gets 
better and better.
    So we are talking summer programs, and it is not a 
punishment, it is not a drill and kill, and then be sent home. 
Because what happens at 11 a.m. if they were out of school? 
Again, the children need somewhere to be, somewhere to go and 
have their summer experiences.
    Senator Dodd. Are you using school facilities for a lot of 
this?
    Ms. Ramoglou. Yes. I would say half of the programs are 
extending the day with in-the-school facilities and the other 
half are using the community centers.
    Senator Dodd. I am wondering, and this has always been a 
huge debate, obviously, about buildings and facilities that are 
open for a few hours each day most of the months, but there are 
periods when they are vacant during the day. I was wondering 
how children's attitudes change about school if, in fact, they 
spend part of the year in the very buildings where they are 
doing something other than exactly learning in an academic 
sense, so that the place becomes a place where not only you 
learn, but also where you have fun. So you are going back into 
that institution which causes different responses in you, as a 
human being. I wonder if you have seen anything like that at 
all?
    Ms. Ramoglou. I can share with you that ROSCCO, as a 
community agency, has been offering programs in the school 
building for 25 years, and the children are in summer program 
mode when it is summer. The atmosphere is set in such a way, 
they are in summer program----
    Senator Dodd. How about coming back to that school in the 
fall, having had a good experience there and fun, do they react 
to the institution as a building differently?
    Ms. Ramoglou. As a matter of fact, I think they are even 
more positive to the institution.
    Senator Dodd. That is my point.
    Ms. Feldman. I think that the point about being in summer 
mode is very well-taken. A school building in the summer that 
has got summer programs going on, even if some of them are 
remedial, is just a different place.
    Senator Dodd. Yes.
    Ms. Feldman. It is a very different place. Remember, first 
of all, you do not have a full complement of students usually, 
so you have much smaller groups of kids with adults, and it is 
just a different feeling. You know, a school is a living, 
breathing place, and it becomes a summer school, and it is 
quite different.
    Senator Dodd. I understood that. I was just getting at the 
notion because, like with parents, one of the problems I have 
heard about over the years, particularly from parents who may 
not have completed high school themselves or did not have an 
educational experience here, to get them to show up at a school 
during an academic year is hard. It is going back into an 
institution where they did not have a good experience 
themselves. They are visiting that facility in a ``non-
academic'' environment.
    I am not using the right words here, I am afraid, but the 
notion is something other than--I am curious as to whether or 
not that is having the kind of positive effect on both the 
student and the parent looking at that facility, that building, 
that can cause one set of reactions from September to June, and 
because they had a different relationship with that institution 
from June to August, whenever it is, that come September there 
is a more positive response to the facility, and I do not know, 
I am just asking the question of whether or not there is any--
--
    Ms. Feldman. Well, I think they would find the school more 
approachable, more accessible.
    Senator Dodd. Yes, that is a good word. Yes.
    Ms. Feldman. By the way, putting parent programs in place 
in the summertime is another thing that could be done that is 
very helpful.
    Mr. Cooper. There are a couple of things you mentioned 
about the punitive nature of summer school----
    Senator Dodd. That is a good word. There is the word I was 
looking for.
    [Laughter.]
    Mr. Cooper. It was clearly the case years ago, especially 
for high school students that that would be the case, but I 
think you would also find today that summer school has a very 
different connotation. Lots of kids who are doing quite well in 
high school use summer and go to summer school for enrichment 
purposes or acceleration. So it does not really have that at 
that level, obviously. If it is remedial, it is remedial, but 
the notion of having to go to school in the summer for high 
school kids is a little bit different today than it used to be.
    Most of the programs that we looked at do not last the 
entire 12 weeks, but will last between 4, typically 6, and up 
to 8 weeks. So kids still do get some downtime, and I think 
most parents will tell you that after 2 weeks of vacation, 
their kids start to get bored.
    Senator Dodd. Yes. You mentioned, obviously, some of these 
issues of resources. Are there other things that we can do to 
promote and help out the lower income parents? If we accept the 
notion, and I think it is rather obvious, again, people have 
fewer choices with less income, and so their opportunities of 
doing the things that we are apt to do with our children, it 
does not even necessarily mean vacations in some cases. I mean, 
there are things that people can do that do not have the 
opportunity to take vacations or go to some fancy place or a 
weekend at the beach or a week at the beach that you can do, 
parents can do. There are things that we can do here to help 
promote ideas or things that would assist that lower income 
family to help them hedge against that slide.
    Mr. Cooper. There are a couple of things that we recommend 
along those lines, and they deal with free opportunities, 
especially in cities, but all over the country you can find 
them. Most libraries will run reading programs that are free 
during the summer for kids, museums are free and typically 
quite available, and also businesses and factories will run 
tours that can be very instructive.
    What we suggest for parents, in that regard, is that before 
their kids leave school at the end of the year, to speak with 
teachers in the coming grade and discuss with them what it is 
their kids are going to be studying the next year and use that 
as a springboard for the kinds of opportunities that they might 
build into their summer activities.
    So, for instance, if you live in the city of Philadelphia 
or near Philadelphia and you discover your child is going to be 
studying the Constitution the next year, it makes a heck of a 
lot of sense to jump on Amtrak--if it is still running at the 
time--and take your kid down to Philadelphia and take them to 
Constitution Hall. So those kinds of things are available and 
can be done pretty cheaply.
    Ms. Feldman. We have actually got a program that we try to 
get out there of summer learning activities that we ask our 
members to share with parents, and I can provide you with some 
of those materials. I think they are full of ideas of the kinds 
of ways that----
    Ms. Ramoglou. Senator, can I respond----
    Senator Dodd. I suspect you are working through public 
service, getting your local TV stations, radio stations, others 
to make people aware of what exists. A lot of time finding out 
where to go to find out what is available can be not easy.
    I was curious, and then I am going the turn my colleague 
from Alabama, just one other question that gets to the finance 
issue a bit. We have not completed the budget process here in 
terms of the education budgets, but we all know--I do not know 
what Alabama's situation is--I know in Connecticut we have had 
a marked change in our fiscal picture in Connecticut, so that 
we are now looking at a shortfall I think that it dipped into 
our Rainy Day fund to the tune of around $300 million to meet 
this year's obligations in the State.
    I am wondering if budgets, if States or communities are 
looking in terms of what is going to be required in addition, 
and I am not sure how much we are going to make up, and, for 
instance, the testing requirements in 3 through 8 and the like, 
there is a lot of concern being raised about whether or not we 
will come up with the resources to assist these schools in that 
regard.
    Is part of what we are looking at a reaction to that in 
terms of budget allocations, holding back funds? Is there some 
relationship between the cutbacks that I have mentioned here 
this morning and the anticipatory cost or is it present costs 
that we are looking at?
    Mr. Cooper. Ms. Feldman said earlier about the notion of 
the costs, and you have to be careful about whether it is 
really a savings and the idea that summer school is actually an 
add-on, whether it is really a savings or if it is just a 
delaying in what would be a much larger expense if summer 
school is cut back.
    The perfect example is the districts and the movement to do 
away with social promotion. It is clearly much more expensive 
to educate a child for an additional year during the regular 
school year, probably 3 to 4 times more expensive to retain a 
student in a grade than it is, as in the Chicago experience, to 
give them an intense summer program in reading and mathematics 
and that that permits to continue at grade level.
    So, if that program were to disappear, but the notion of 
social promotion also disappeared and many more kids are being 
held back or being retained in grade, the expense of educating 
those children, if they finish school at all when retained, and 
it is not clear that they do--the drop-out rate is higher--is 
going to be much greater than is the expense of the summer 
programs.
    Ms. Feldman. I think what is happening across the States, 
though, right now is that we had an economic turndown, most of 
the States--almost all of them--require balanced budgets, and 
they are finding that they simply do not have the tax revenues 
coming in to provide the same level of service to education and 
lots of other things that they were providing before.
    So cuts that we are seeing, as I said, I mean, the summer 
school, it cannot be considered a frill, but people still go 
back to, ``Well, where am I going to cut? I will cut summer 
school, I will cut after-school.'' They are experiencing cuts 
across the board in the States, and it is pretty frightening. 
It is very serious because we have been making progress. People 
are being asked to meet higher standards. They have been trying 
to meet those higher standards, and now they are going to be 
looking at higher costs as a result of the Federal law, and we 
have to find a way to help them meet those costs.
    I mean, yes, there is some money for testing this year. 
They will be getting a very good increase in 2003, which we 
thank you all for, but so far the budget is not looking so good 
for next year, I mean, for 2002 versus 2003. Next year, and I 
know that the discussion is just starting, but there is a lot 
of concern about whether we can carry forward the expectations 
that I think everybody has, bipartisan expectations, for the 
children in the schools in the coming years.
    So I do not think people are setting some money aside; I 
think they are experiencing huge shortfalls and trying to find 
a way to live with them.
    Now I do want to just take that opportunity, though, to say 
that we do see something happening in relation to the 
reauthorization, in relation to the Leave No Child Behind Act, 
which we are a little concerned about. We do not have full 
information on it. But in anticipation of potential 
transportation costs, we are finding that some States are 
holding back much more money than they should in anticipation 
of needing to pay for transportation because of the public 
school choice element in the law.
    We are going to be studying that and trying to come to 
grips with it. We also talked to the Department about that, 
trying to discourage them from doing that. But that could end 
up being a problem where the promise of funds, which this 
Senate and the Congress made generally and the Administration 
made generally, is not going to bear fruit because of the 
holding back of some of those funds that they anticipate 
needing to spend on transportation because of choice.
    So we will see what happens with that, but I do not think 
that is what the overall problem is. The overall problem we are 
experiencing right now and the cuts that we are having in 
summer school this summer have to do with economic downturn, 
with the lack of tax revenues coming in. Some of it may have to 
do with the tax cut that was enacted. That is what is going on.
    Ms. Ramoglou. The need has not changed, and it is not going 
away. So, if we are not investing in it currently, I believe it 
is going to be paid for further on down the line. So we may be 
saving now, but what is the actual cost?
    Senator Dodd. I know, and every State is different. In our 
State, in Connecticut, there is a tremendous dependency on the 
local property taxes, our major funding source. That is what 
most communities in most States--although others do it somewhat 
differently, some are just pure State, and obviously we are 
finding--I always say at the Federal level we cut taxes, and 
the President, and the Congress, and the States do it. When it 
gets down to the lowest level of Government, the local level, 
they are not left with many alternatives because everything has 
been cut back. The poorer communities, obviously, do not have 
the base to begin with, and it makes it hard.
    Let me turn to my colleague from Alabama. Thank you.
    Senator Sessions.
    Senator Sessions. Thank you.
    Our State budget has been squeezed, as most States have, 
and it is a tough time, although the reductions are not 
significant, but they are felt significantly--not significant 
in terms of overall expenditures, but they are significant in 
terms of the impact they have.
    I would note that I think in the last 2 years, Mr. 
Chairman, that we have got about a 30-percent increase in 
Federal aid to education. I think it was 15 or 20 percent last 
year and about that much the year before, and we got a nice 
increase for next year. We may not be able to hold it because 
the deficit is greater than we expected, but we have increased 
funding many multiples of the cost of living in America. So the 
Federal Government is enhancing its share of the funding. There 
is no doubt about that, and President Bush has pushed for that.
    Professor Cooper, we know we are spending a lot now. Most 
systems do have summer school programs of some kind. Can you 
tell us, have you studied what works, or have other 
authoritative persons done it, and analyzed existing studies, 
and conducted studies to determine what really works and what 
amounts to a little benefit from summer schools?
    Mr. Cooper. Yes. In fact, we titled our report, ``Making 
the Most of Summer School,'' figuring that the more important 
question, the real question was how to make these programs as 
effective as possible. When we looked at these 93 evaluations 
and looked at the impact that each one of the programs had, we 
tried to sort them into different program characteristics and 
see if larger effects were associated with programs that had 
particular characteristics. So that was our way of going about 
doing it.
    Senator Sessions. Could I just interrupt? Did you feel like 
the studies that were conducted, those programs were adequate 
scientifically or, if you designed it yourself, could you have 
designed it better?
    Mr. Cooper. Most of the studies have deficiencies in them, 
and it is unquestionably the case that we need to pay greater 
attention to getting the best possible, sound scientific 
evidence on these issues.
    Senator Sessions. And objective. Because the truth is, and 
I have seen it in the Department of Justice, where we study 
every kind of idea to fight crime, whoever believes in that 
idea somehow influences the study.
    Mr. Cooper. Right.
    Senator Sessions. It oftentimes turns out to be more 
favorable, and then it confuses you about precisely what works 
and what does not.
    Mr. Cooper. I understand. We are looking across studies 
with lots of different methodologies. I am not going to claim 
that these are definitive answers, but that, in fact, they give 
us some suggestions. And a lot of them will be very consistent 
with the knowledge the teachers would have, but perhaps one way 
to think about it would be to say, using these as guidelines, 
now let us go out and give these really good tests, objective 
tests of if these types of program characteristics are 
important.
    Senator Sessions. Do you think it would be good--before you 
get into it--do you think it would be good for the Department 
of Education to assemble a top group of researchers to 
establish what needs to be determined about programs, what does 
work and really conduct a substantial analysis nationwide?
    Mr. Cooper. Yes.
    Senator Sessions. Are we doing anything like that?
    Mr. Cooper. I am not aware of any association, particularly 
with summer school. Obviously, there are an enormous number of 
topics in education that could benefit from that kind of study. 
I am sure you are as aware, if not more aware than I am, of the 
efforts in the Department of Education, the Office of 
Educational Research and Improvement, to increase the rigor and 
the standards of educational research.
    In fact, there is a bill in the Senate at the moment to 
reorganize the research capacities in the Department. I think 
it is a very positive step forward that requires the employment 
of scientific standards. OERI is bidding for a ``What Works 
Clearinghouse'' that would do the kinds of things that we have 
been doing over a multitude of topics, trying to bring together 
the best evidence available and synthesize it in support of 
policymakers and policymaking decisions.
    So I think that there is definitely a change in the ethos 
within the Department of Education about getting evidence-based 
practices and getting a lot of these practices out of the 
advocacy mode and into hard evidence, the same way we use in 
medicine.
    Ms. Feldman. Can I just--I wanted to add to that, that 
where we do have evidence, and I think the professor would 
agree, is in early childhood, in the very early years. I mean, 
there has been some astounding work done at Johns Hopkins, the 
Entwisle work, which does point out--which I think is pretty 
rigorous----
    Senator Sessions. Preschool or early school?
    Ms. Feldman. We are talking about the summers between, let 
us say, before and after kindergarten, between kindergarten and 
first grade, between first grade and second grade. Those 
summers make a tremendous difference. There, we have 
longitudinal evidence. We have the National Center on 
Educational Statistics did this longitudinal kindergarten 
study. These researchers at Johns Hopkins and others have 
looked at it, and we can provide you with that.
    So I think in early childhood we know that lengthening the 
school year, giving the children more time during the summer, 
doing the kinds of things with them that families who have the 
wherewithal, the advantage to do makes a tremendous difference. 
It enables them to catch up at those early years.
    Now the other further years maybe the evidence is not as 
rigorous. I am not familiar with that, but I think we can say 
so about early childhood.
    Senator Sessions. With regard to this, your research and 
studies, have you determined that some things, if they are made 
a part of the summer school program, seem to increase success?
    Mr. Cooper. Yes, we have.
    Senator Sessions. Can you share some of those ideas with 
us?
    Mr. Cooper. Sure. Ms. Feldman mentioned this as well.
    Summer programs tend to have smaller class sizes, and the 
programs that do have smaller class sizes tended to have larger 
effects on kids. Parent involvement, also, getting parents 
involved was associated with larger effect sizes.
    What we would call ``monitoring fidelity,'' which is sort 
of a fancy way of saying the program needs to be focused so 
that there are clear goals and that those clear goals then are 
assessed in a very precise way so that people know, when they 
are going in, what it is they want to achieve, and their 
outcome measures. Along the way, people check classrooms to see 
that, in fact, the instruction is in the area, that proper 
amounts of instruction are occurring, and then testing those 
particular goals at the end of the program.
    It is also the case--and let me just mention a couple of 
other things that are less--they are more experience based, 
that are based more on surveys that involve teachers who take 
part and what they would see. One of these is very pertinent, 
and that is that teachers need time to prepare. Because summer 
budgets often await the end of the school year, teachers often 
do not know until March, April, May, June and sometimes July 
that they are actually getting the summer money.
    There are instances where summer programs have failed 
because the funding comes in so late that the materials for the 
program do not actually show up until after the program has 
begun. So that is one of the reasons why we said a stable 
source of funds.
    The notion that teachers who have seniority in summer 
programs be given first opportunities to teach again, so that 
there is some stability in the staffing, as well as in the 
funding sources, can be very important. There are a lot of 
school districts that use summer programs to institute or try 
out innovative teaching methods, more informal teaching methods 
and that have even incorporated teaching summer school with 
teacher development, so that teachers can move up on the salary 
scale because they are using it to learn new kinds of 
techniques.
    All of those activities, all of those aspects, the second 
group being more informally based, the first group being part 
of our statistical evaluation, suggest that those would be 
important aspects for getting summer school to be most 
effective.
    Senator Sessions. You know, from the taxpayers' point of 
view, I think the American people would like to know that we 
have a vision for what we are going to reinforce in that summer 
and what we are going to maybe learn anew and that there be 
accountability in that process into that.
    Do most summer school programs have a clear understanding 
of what skills that they want the students to be reinforced in 
or enhanced in?
    Mr. Cooper. They vary. I think the most clearly focused one 
is the Summer Bridge program in Chicago, which has been very 
effective, and in an environment where you would anticipate 
summer school would have a lot of trouble, but they have done a 
fairly good job of implementing these kinds of principles. I 
think Minneapolis is another one that has done it. Other school 
districts pay less attention and probably get less ``bang for 
the buck'' because of it.
    Senator Sessions. One more question I might ask each of you 
or whoever would like to share on it. Do you know to what 
extent summer school is compulsory in the areas that have it? 
Is it a compulsory program or, for the most part in the 
country, a voluntary program?
    Mr. Cooper. That also varies. Again, to point to Chicago, 
the Bridge program is compulsory, and if you do not take it, 
you are retained, you go back a grade or you do not get 
promoted. Then, there are others in which it is voluntary.
    What our research did show is that it really does not 
matter. We were actually anticipating that the voluntary 
programs, kids who go voluntarily would benefit more, but in 
fact we did not find that at all. Making kids go maybe it is a 
motivator in itself saying, ``You are going to have to go,'' 
and ``I better get through this, because I do not want to do it 
again next summer.'' In fact, if anything, the programs that 
were mandatory tended to have a slightly larger positive impact 
than the ones that were voluntary.
    Senator Sessions. You know, that is a big thing to think 
about, Mr. Chairman--who is going? Are the people that need it 
the most benefiting, or are there any thoughts on that?
    Mr. Cooper. Actually, one of the things that we discovered 
is that it is possible that the students who truly need it the 
most, the kids who are really at the bottom of the 
distributions are the ones who are most difficult to get into 
the programs, likely because they are coming from the poorest 
families, because issues of transportation, of lunch. One of 
the interesting things that we found was a notion if--and it 
was mentioned as well, I think Senator Clinton may have 
mentioned it--that in a lot of instances, an older sibling who 
needs summer remediation, the parents will not let them go 
because they need them to babysit younger children in the 
family. So, in a situation like that, it is not going to 
matter. The parent just will not, either they have to leave 
their job or they cannot send that child to summer school. They 
need them there to take care of the younger siblings.
    One of the things we suggest is the possibility, especially 
where you can have that level of focused attention to families, 
is to, in fact, look at the entire family need during the 
summer and not only give summer school to the eighth grader, 
but also to the fifth grader and the third grader in the same 
family, even if the fifth and third grader might not actually 
meet all of the requirements for the program, but to get the 
whole family in and do some preventative work with the younger 
children and at the same time permit the older kid to be able 
to go.
    Ms. Feldman. I think that, given the tremendous need out 
there, that it would be useful to focus on where the need is 
greatest and come up with a phasing in of a program which 
starts, first, with the children we know will have the greatest 
need and also the greatest benefit from such a program, and we 
know enough now at least to begin. I think, as I said earlier, 
it is also in the context of so many other needs that we owe it 
to ourselves, to our citizens, to our children to make those 
distinctions and to start where the greatest need is.
    Ms. Ramoglou. Our summer school children are identified. 
They are invited to attend summer school, but they are also 
told if they do not make arrangements that are acceptable to 
the school that they may be retained. I also wanted to say----
    Senator Sessions. So it focuses on children in need.
    Ms. Ramoglou. In need, absolutely.
    I also wanted to respond to something Senator Dodd asked 
earlier, in that when the school--and this also includes what 
you just responded to--when the school is meeting the needs of 
the family, as keeping the fourth grader along with the eighth 
grader, the parents that had negative experiences when they 
were students become very positive toward the school.
    I also wanted to point out a perfect example is that we 
have our president of our board, who is with me here today, and 
can attest to the positive spirit that is in the school 
building because of what is being offered to the families, to 
the parents and how needs are being met. So it is really very 
strong.
    Senator Dodd. Anything else?
    Senator Sessions. Do you want to do another round?
    Senator Dodd. Yes, sure. These are excellent questions you 
are raising and very good points. That was very valuable to 
learn about that study on the voluntary and mandatory. That was 
a very good question and very, very helpful to us.
    Let us follow up on the family issue a little because I 
think this is so important. I mean, I think one of the 
frustrations, I think, Sandra, you have testified to this on 
countless occasions in the past, that is what we all worry 
about is how do you increase parental involvement? 
Particularly, again, we are talking about the students who are 
in need. Invariably, it seems that the ones who are doing well, 
one of the factors that always sort of tracks that, not always, 
but is their parental involvement. In fact, so much so that I 
know from my sister who is teacher, some of them will drive you 
nuts as a teacher because they just--they are so in your face 
they do not give you a chance to teach sometimes, but it is 
hard to argue with it if they care enough about it, they are 
there all of the time and worried.
    Getting the parent of the child who is not doing that well 
to become engaged in the process is very, very hard. Under Head 
Start programs, we have a requirement that there be parental 
involvement, have for years. It is not perfect, but we end up 
with about 80-percent, I think the numbers are, if my memory 
serves me well, about 80-percent parental involvement in Head 
Start programs. Those are the national numbers I think, and 
then when you get to the first grade, that number drops. It 
goes from 80 percent, I think, down to around 20 percent.
    I am wondering what relationship this summer experience--
you mentioned having a place where younger siblings can go--it 
addressed, Dr. Cooper, one of the points you made, what other 
things can we do to utilize this time so that when September 
rolls around and it does change, you go from a summer mode to 
an academic year mode, that we can transition that parent who 
may have had that pretty good experience over the summer to now 
carry on so that when that fall starts with that same child, 
they are going to feel less threatened by that building and 
institution that they have not been willing to visit in the 
past?
    Ms. Ramoglou. It is interesting that you mentioned 80 
percent in Head Start, and it falls down to 20 or 30. Are they 
different parents? No. They are the same parents. So something 
is not happening in school that was happening in Head Start.
    One of the things is that with Head Start, with daycare, 
child care, you see the teacher, you are in the building every 
day because most likely you are dropping the child off and 
picking the child up. The other is that schools, unfortunately, 
have not been as inviting to parents as a daycare center. So 
family resource centers, community centers in schools have 
really embraced exactly what you are talking about, 21 CLCs, 
and trying to create that environment in the school building--
--
    Senator Dodd. Twenty-one CLCs, you better explain what that 
is or you are going to lose people.
    Ms. Ramoglou. Twenty-first Century Community Learning 
Centers have become or are trying to be that inviting place. To 
make the schools the place that the Head Start or the preschool 
was, where the parents can come on in a daily, if not a daily, 
a regular basis to meet the teacher, to be in the building, to 
take part in activities that are planned for families and for 
parents.
    Ms. Feldman. There are a lot of models now that have had 
success in getting parents into school and getting them 
involved in a more intense way with their children's education. 
They are few and far between, though. I mean, it is not done 
enough at all, and it is something that could be built on. 
Summertime might be a very good time to do it because there is 
more time. It is sort of a looser schedule, and I think that it 
would be one of the things, getting parents----
    There are programs, for example, I mean, we could talk all 
day about very good programs anecdotally, and I know programs 
where the parents actually go to school with the children in 
the summertime, parents who are in Welfare to Work programs, 
for example, and who have very young children. So we have a 
program for the young child in the school and a program for the 
parent in that school.
    There are lots of ways that we can increase parental 
involvement of the neediest children. If we focus on the 
neediest children and we do it intelligently, I think we can 
make a tremendous difference because getting the parents 
involved in this is essential.
    Senator Dodd. Do you want to come in on this, Dr. Cooper, 
at all?
    Mr. Cooper. The only thing is a small note of caution that 
parents, especially parents of limited means, with limited 
education, you have to make sure the kinds of involvement you 
ask for are within the capabilities of the parent. So you can't 
ask a parent who has had difficulty in school themselves to act 
as a mentor in the same way that you might a middle-class 
professional parent. Likewise, a middle-class professional 
parent with 5 kids cannot be asked to spend an hour a night 
with each one of the children acting as a mentor.
    So it is important for educators to be sensitive to the 
types of families that they serve, and every parent needs to be 
involved. There are always attitude components and support 
components that even the poorest families ought to be held 
responsible for, but you need to be careful about not turning 
parents off by asking them to do just a little bit more than is 
beyond their means.
    Senator Dodd. You raised an interesting point, and I would 
love you to respond to it, Dr. Cooper, here. You testified that 
students in all grades benefit from summer school, but that the 
benefits seem to be greater for students in earlier grades and 
in high school.
    Obviously, a couple of questions. First, which grades are 
referred to by early grades and, second, what is your sense of 
why the benefits seem to drop off and then pick up again so you 
get the sort of test curve?
    Mr. Cooper. That is a very good question. Most of the 
research we looked at, summer school for kindergartners, first 
graders, second graders just does not really exist in a lot of 
places yet, and the evaluations obviously are for programs that 
have been in place for at least a year. So there is very little 
evidence at the very earliest grades.
    So I would say upper primary grades is what we mean by the 
earliest grades. We think that they work real well because they 
function, as I said, on the basic skills. Kids who they see 
falling behind in math and falling behind in reading, they 
bring them in for remedial education in those specific topics.
    In high school, it is sort of the same way. A student 
flunks a course in geometry so it is very focused. They come 
back to take geometry class, the curriculum is prepared, the 
tests are there, so again it is very focused.
    The middle-school programs tend to look more at the whole 
child. They are not as focused on academic pursuits, in 
particular, but will be more concerned about attitudes toward 
school, helping kids transition as they move through puberty, 
helping them in transition as they move from elementary school 
to junior high school and more self-concept kind of issues.
    So the focus of the programs is more diffuse in terms of 
looking at the whole child and helping them through what is a 
difficult transitional period, rather than focusing on specific 
academic needs. So that is why I think that it falls off. It 
does not necessarily mean those programs are less valuable for 
those kids, but what educators have defined as the most 
valuable thing to do with them during the summer is help them 
learn how to be a junior high school or middle school kid, 
where they will go from one class to another, as opposed to the 
self-contained classroom, and then also as they are wondering 
about who am I and what role will school play in my self-
definition.
    Ms. Feldman. I do not disagree with that, but I just wanted 
to put a marker on the problem of the achievement gap because 
we know that the achievement gap continues, you know, 
progresses through schools, and that, in some instances, it 
appears even to widen as the kids go through school.
    We also know that in the very earliest--of course, if you 
get children before school, if you have got a high-quality 
preschool program, it makes a tremendous difference. If you can 
extend the time that very young children spend in school so 
that they continue, that you accelerate their learning during 
that period of time, you can narrow the gap early-on and 
hopefully, keep it narrowing as they go forward.
    So there are a couple of different purposes here. There is 
the remediation purpose, and the evidence is there, but there 
is also, I think, the very great concern that we all have and 
that a lot of the premise of the Leave No Child Behind Act was 
based on is about how to close the achievement gap, and closing 
the achievement gap by providing very young children with 
richer and longer school experiences is something that we just 
should not lose sight of.
    Senator Dodd. Let me, because I wanted to sort of, in a 
polite way, challenge something that all of you sort of agree 
with at the outset, and that is the notion that during the 
academic year, that in the school year, in fact, in school 
there is no difference. Time out of school, not in school, that 
causes the gap. I think, Sandra, that was the quote.
    I am curious, because if you are--let me see if I can 
articulate this without sounding--it seems to me if you are all 
performing basically in school pretty well and then you have 
this gap over the summer because it is not there, the 
assumption I was sort of left with is that, come the academic 
year again, somehow everyone gets back up to that same level.
    My assumption would be that if you were falling behind, you 
did not get the summer school experience, that when you start 
back up again in September, that your ability then to catch up 
with people who have had those good experiences during the 
summer, have not fallen behind, have not been sliding back, 
widens. So that you get sort of an exponential growth in the 
gap over the--so by the time you do reach the upper levels of 
primary school or high school, that gap has really widened, not 
just because of what you have missed in the summer, but the 
cumulative effect of that, in terms of your ability to stay up 
once the gap starts.
    Did I say that----
    Ms. Feldman. That is exactly right.
    Ms. Ramoglou. Exactly right.
    Senator Dodd. Why did I think you said something 
differently earlier? I thought earlier you were saying 
basically performing----
    Ms. Feldman. I am talking about kindergarten, that children 
during these very early school years, these kids are not 
learning in lock-step, but poor children learn tremendously, 
they learn at very high rates. When they get to kindergarten, 
they accomplish what kindergarten children are supposed to 
accomplish. Now they may not be at the same place as more 
advantaged kindergartners, but then they fall back in the 
summer, and then that is cumulative, just as you said.
    Ms. Ramoglou. But we also find that children come to school 
prepared at different levels, even beginning kindergarten, and 
that is the purpose of the school readiness.
    Ms. Feldman. I am talking about the rate that kids learn 
at. There is nothing wrong with the kids is what I am saying. 
They just need more time.
    Senator Dodd. Yes. Obviously, I think that the gap, we have 
learned now from I think the survey, as I recall it, we were 
looking at the early learning issues, and I think a survey done 
recently of kindergarten teachers, some 46, almost 50 percent, 
indicated that the children in kindergarten are just not ready 
to learn. So the assumption that everybody comes into 
kindergarten sort of on a level playing field is now totally 
wrong and that you are looking at very wide differentials 
already at that earliest level. So that once the process really 
starts with the formal education, if you are already behind the 
curve when you start, it is awfully difficult to catch up.
    Ms. Feldman. It is, but I think it is important to remember 
that the children can learn, I mean, they do well. They are 
behind because they started behind, but during the time that 
they are learning, they are learning as well as any other 
children.
    Senator Dodd. One last question from me, and then we turn 
to my colleague.
    I am just curious if you might comment. I think you have 
already indicated this, but I wonder if there is any evidence 
to support this, and that is we have all talked about--at least 
I did anyway--the beneficial effect, aside from the academics 
of, obviously, it is a child care setting, it is an 
alternative, it is keeping kids busy, less likely to be on the 
streets getting in trouble and so forth, that all seems sort of 
self-evident and obvious, but I wonder if there is any sort of 
empirical data and evidence to indicate that, in fact, these 
levels of activities also have a social benefit aside from the 
academic benefits? I wonder if you could quickly comment on 
that.
    Ms. Feldman. Well, they do have social benefits, but as we 
know, there is also a tremendous variation in quality that is 
being looked and studied. In our opinion, there needs to be an 
upgrading of the quality of a lot of the programs that children 
are in. Some of the child care settings what you could say 
about them is hopefully they are doing no harm. But a lot of 
children are not getting what they need in many of those 
settings.
    We know that there has been tremendous improvement in Head 
Start. There are studies to show that Head Start works, but 
there is still a lot of what is called early childhood care 
that needs tremendous upgrading and needs a lot more infusion 
of quality.
    Senator Dodd. Any other comments on that?
    Ms. Ramoglou. Yes, I would like to address that.
    NSACA has done pilots in standards and has published them, 
addressing the quality in what we call school-age care programs 
for children that are in elementary and spend time in school, 
either in extended day or in after-school programs.
    Senator Dodd. We mentioned, by the way, I said last, but 
just one further point here, what goes into a quality program 
and whether schools get that information about best practices. 
I wonder if we are doing a very good job, speaking at the 
Federal level, about collecting best practices and getting that 
information out, then, to schools that are anxious for good 
ideas.
    Dr. Cooper, are you----
    Mr. Cooper. There are regional laboratories that do that 
kind of dissemination work. At the moment, as I mentioned 
earlier, OERI is attempting to put together what they will call 
a ``What Works Clearinghouse,'' which will bring together, 
synthesize the best evidence on educational practices and then 
have a web-based model as an opportunity to make that available 
so that school district personnel will have sitting on their 
desk, essentially, availability to an encyclopedia of what the 
best evidence suggests practices ought to be. So there 
definitely are efforts in that direction.
    Senator Dodd. Senator Sessions.
    Senator Sessions. Thank you.
    Just to follow up this analysis of how the system works. I 
wonder, in a business, people are intensive about the resources 
they have invested to make sure they get the maximum benefit 
from the resource they have invested. Social promotion, the 
ending of that I think has a net healthy effect, in my personal 
view, but it does, as you note, Dr. Cooper, require us to focus 
on those kids that are in danger of being held back at the much 
greater expense than summer school a whole additional year. So, 
if you could move them forward, it would be better for them and 
for the budget and a net gain.
    My question is this: We do a lot of testing. The President 
has required testing in third through eighth grades and that 
sort of thing, and in IDEA you have an individual education 
plan for each disabled student. Does anybody analyze a child's 
deficiencies and strengths before summer school and could you 
recreate a system in which those very deficiencies are 
addressed more effectively through the summer?
    Mr. Cooper. They do in IDEA. Each child who gets special 
education has an individual plan. In fact, the legislation 
includes that that plan examine what is called ``regression'' 
during summer. So that for children in most severe need of 
additional educational interventions, the team of educators who 
put together the program is required to say will this child 
lose over summer and, if so, we need to provide services for 
them during that time. So that is a model. In the best of all 
possible worlds, every child would have an individual 
educational plan, but obviously that is a resource-intensive 
activity.
    Senator Sessions. But it is not happening basically now.
    Mr. Cooper. It is not happening now.
    Senator Sessions. Would you consider reaching a higher 
level if you had a sizable summer school program in a mid-size 
to larger school that you could identify children in third, 
fourth, fifth grades that have this kind of difficulty in 
mathematics and a tract could be set aside--or an hour a day 
that they would be sure to go through that kind of 
reinforcement in their weak areas, or maybe it is reading or 
other subjects, and a teacher would be able to teach a group on 
about the same level?
    Mr. Cooper. Yes.
    Senator Sessions. Could we do that?
    Mr. Cooper. I do not see why not. Obviously, we are 
thinking it out here. We do not understand perhaps what all of 
the logistical problems would be, but I think the model that 
you have identified would be a very positive one.
    Senator Sessions. I do not think it would be particularly 
expensive. Probably a good educator could study a person's test 
score numbers and their grades and identify their weaknesses 
pretty quickly, and the perfect being the enemy of the good, 
you would not have to have an absolutely perfect system, but 
one that emphasized more effectively focusing on the needs of 
each child should be achievable to me.
    We have a lot of professionals that, frankly, consider 
summer school to be glorified child daycare, you know, play 
school. I have heard that said. I do not think that is what is 
happening, but I do believe we can reach a higher level there.
    Has any thought been given to high school students who may 
be working in the summer? Have there been any programs for 
night school for them in which they could come and do advanced 
mathematics or basic math or science or reading courses and 
that kind of thing? Have we done anything like that?
    Mr. Cooper. I know there have been some programs that 
incorporate both education in the classroom and work 
experiences as part of a summer program. So they will do an 
internship in an afternoon and have classes during the morning. 
Even there a couple of programs---I believe I have got this 
right--where the classes are actually held at the business. 
They will open up the business.
    I know in my school district there is a program where some 
of the high school kids actually run a deli for a business, and 
the business not only lets them do that so they get a sense of 
operating a business, but they have also set aside a classroom 
space. Teachers come in and teach the kids right in the work 
environment.
    Ms. Feldman. In New York City, we have high schools--I 
think there are four now--that actually run all day and all 
night. Kids who work different shifts, work all day, can come 
to school after work, and kids who are starting at some early 
hour can actually come to school right after that, at a very 
early hour. So that is possible to do.
    Senator Sessions. Work is good, I believe. You work in a 
fast-food restaurant, you learn something about management, how 
systems are organized, you learn a lot of things that people I 
think fail to recognize.
    I worry a little bit about that middle student, the C-plus/
B student who has a chance to go on to college, are they losing 
too much in the summer? Do we have any numbers that show how 
much it enhances their test scores maybe getting them into 
college, that they would not otherwise do? Do you know about 
that?
    Mr. Cooper. I think the greatest impact of the summer is on 
the kids who are struggling. They lose the most, and especially 
if they come from families that do not speak English at home. 
So, if you speak with special educators----
    Senator Sessions. So, in priority, that would be your 
first.
    Mr. Cooper. I think it would clearly have to be, yes.
    Senator Sessions. But do we know how much impact it might 
have on an average student's learning----
    Mr. Cooper. We know they are losing, also.
    Senator Sessions [continuing]. If they were given a pretty 
rigorous summer school program?
    Mr. Cooper. We know all kids are forgetting stuff over 
summer. There is no question about it.
    Senator Dodd. This has been very, very helpful. I want to 
thank my colleague for being here--I am flattered--to help out 
with this. Some wonderful questions, I think, are very 
enlightening.
    Our three witnesses were excellent. Sandra, we always love 
to hear your thoughts and views. You know so much about the 
subject matter. It is wonderful to hear you talk about these 
models.
    Dr. Cooper, I cannot thank you enough. Your studies have 
been wonderful and very, very helpful today. I will reiterate 
we would love to have you come back to Connecticut. Missouri is 
lucky to have you, but you are welcome to come home any time.
    Ms. Ramoglou, you have been terrific----
    Mr. Cooper. Pick out a chair and I will come.
    Senator Dodd. All right, fine.
    [Laughter.]
    I am afraid I cannot do that. I can get you a chair, but I 
cannot----
    [Laughter.]
    Ms. Ramoglou, it is very exciting to hear what you are 
doing in Stamford, CT. It is been exciting over the years. You 
have spent a lot of years working at this, and you bring a 
wealth of very practical experience of how a good program can 
really reach and make a difference in families' and children's 
lives.
    So, hopefully, we can convince others of the importance of 
this and do so in a very smart, intelligent way so that we can 
increase the opportunities of all kids, and particularly those 
who are most needy.
    I thank all of you for being here to participate in this 
hearing. We look forward to your continuing participation.
    The record will stay open. Other colleagues may have some 
questions to ask before we close the record.
    With that, this hearing stands adjourned.
    [Whereupon, at 11:47 a.m., the hearing was adjourned.]
  


</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
